<html>
<title> - THE FAMILY AND MEDICAL LEAVE ACT: EXTENDING COVERAGE TO MILITARY FAMILIES LEFT AT HOME</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      THE FAMILY AND MEDICAL LEAVE
                       ACT: EXTENDING COVERAGE TO
                     MILITARY FAMILIES LEFT AT HOME

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 18, 2007

                               __________

                           Serial No. 110-64

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
37-691                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Donald M. Payne, New Jersey          Joe Wilson, South Carolina,
Timothy H. Bishop, New York            Ranking Minority Member
Carol Shea-Porter, New Hampshire     Tom Price, Georgia
Phil Hare, Illinois                  John Kline, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 18, 2007...............................     1

Statement of Members:
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California........................................    12
        Prepared statement of....................................    13
    Wilson, Hon. Joe, ranking minority member, Subcommittee on 
      Workforce Protections......................................     3
        Prepared statement of....................................     4
        Statement of the National Coalition to Protect Family 
          Leave..................................................    40
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Clinton, Hon. Hillary Rodham, a U.S. Senator from the State 
      of New York, prepared statement of.........................    11
    Dodd, Hon. Senator Christopher J., a U.S. Senator from the 
      State of Connecticut.......................................     5
        Prepared statement of....................................     9
    McCaskill, Hon. Claire, a U.S. Senator from the State of 
      Missouri, and Hon. Barack Obama, a U.S. Senator from the 
      State of Illinois, prepared statement of...................    38
    Ness, Debra, president, the National Partnership for Women & 
      Families...................................................    29
        Prepared statement of....................................    31
    Perdew, Jessica, deputy director of government relations, the 
      National Military Family Association.......................    19
        Prepared statement of....................................    21
    Vion-Gillespie, Christine, employee relations and compliance 
      manager, SAS Institute, Inc., on behalf of the Society for 
      Human Resource Management..................................    24
        Prepared statement of....................................    25
    Wade, Sarah, public policy intern, Wounded Warrior Project...    16
        Prepared statement of....................................    18


                   THE FAMILY AND MEDICAL LEAVE ACT:
                         EXTENDING COVERAGE TO
                     MILITARY FAMILIES LEFT AT HOME

                              ----------                              


                      Tuesday, September 18, 2007

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] Presiding.
    Present: Representatives Woolsey, Payne, Bishop, Hare, and 
Wilson.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jordan Barab, Health/Safety Professional; 
Jody Calemine, Labor Policy Deputy Director; Lynn Dondis, 
Senior Policy Advisor for Subcommittee on Workforce 
Protections; Michael Gaffin, Staff Assistant, Labor; Jeffrey 
Hancuff, Staff Assistant, Labor; Brian Kennedy, General 
Counsel; Thomas Kiley, Communications Director; Ann-Frances 
Lambert, Administrative Assistant to Director of Education 
Policy; Joe Novotny, Chief Clerk; Michele Varnhagen, Labor 
Policy Director; Robert Borden, General Counsel; Cameron 
Coursen, Assistant Communications Director; Rob Gregg, 
Legislative Assistant; Taylor Hansen, Legislative Assistant; 
Richard Hoar, Professional Staff Member; Victor Klatt, Staff 
Director; Jim Paretti, Workforce Policy Counsel; and Linda 
Stevens, Chief Clerk/Assistant to the General Counsel.
    Chairwoman Woolsey. A quorum is present. The hearing of the 
Workforce Protections Subcommittee on ``The Family and Medical 
Leave Act: Extending Coverage to Military Families Left at 
Home,'' will come to order.
    Pursuant to committee rule 12(a), any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    I now recognize myself, followed by Ranking Member Joe 
Wilson, for opening statements.
    So I want to thank everybody who is here today--who is 
coming to listen and coming to participate in this very 
important hearing.
    My remarks will be brief. We want to hear our distinguished 
witnesses; we do not want to hear me. But I want to say 
something about the Family and Medical Leave Act, which is 
intended to help individuals balance their families and their 
work obligations.
    Ninety million working people are now eligible for unpaid 
protected leave for up to 12 weeks a year. When the act was 
passed in 1993, it was a huge, giant step, and is of great 
importance to working families still today.
    A majority of military spouses work outside of the home, 
and they, too, must balance work and family, among other 
things, to put food on the table and to provide support for the 
needs of their families. But they face additional challenges 
because their lives have been disrupted by multiple deployments 
involving not only active servicemembers but those in the 
National Guard and the Reservists. There is so much that faces 
the military family that the very least we can do is pass 
legislation to help them.
    The conflicts of Iraq and Afghanistan have resulted in 
almost 30,000 casualties--I think it is more--with many 
servicemembers being very, very seriously wounded. These 
wounded warriors need substantial support. They need care from 
their families, and they often need this care for long periods 
of time. Some need the care permanently.
    So, no matter where we come down on the merits of these 
conflicts, we must help the families involved, families who 
include not only spouses but parents, children and others. We 
must help them support their loved ones who are putting their 
lives on the line for us in Iraq and in Afghanistan.
    Unfortunately, this current administration has let down our 
returning servicemembers, and we need to reaffirm our 
commitment to these brave men and women. Therefore, I am 
honored to have introduced H.R. 3481, the House companion to 
Senator Dodd's and Senator Clinton's legislation, S. 1975.
    This legislation amends FMLA to provide 6 months of leave 
for spouses, children, parents and other next of kin to care 
for injured servicemembers. This legislation incorporates the 
recommendations of the President's Commission on Care for 
America's Returning Wounded Warriors, chaired by Secretary 
Shalala and Senator Dole. It is the least we can do, and 
hopefully, we can do much, much more.
    So I look forward to the testimony of panel one and panel 
two.
    And I yield to my ranking member, Mr. Wilson.
    We are going to try then to have you heard before we go 
vote, Senator.
    Senator Dodd. Thank you very much.

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    Thank you everyone, for coming here today to participate in this 
hearing.
    My opening remarks will be brief because we want to hear from these 
distinguished witnesses.
    The Family and Medical Leave Act is intended to help individuals 
balance their family and work obligations.
    Ninety million working people are now eligible for unpaid job 
protected leave for up to 12 weeks a year.
    When the Act was passed in 1993, it was a giant step, and is of 
great importance to working families.
    A majority of military spouses work outside of the home and must 
balance work and family, to put food on the table, and provide the 
support their families need.
    But they face additional challenges because their lives have been 
disrupted by multiple deployments, involving not only active service 
members but those in the National Guard and reserves.
    And the conflicts in Iraq and Afghanistan have resulted in almost 
30,000 casualties with many service members being seriously injured.
    These wounded warriors need substantial support and care from their 
families, often for long periods of time, and some permanently.
    So no matter where we come down on the merits of these conflicts, 
we must help the families involved--families who include not only 
spouses but parents, children and others--support their loved ones who 
are putting their lives on the line for us in Iraq and Afghanistan.
    Unfortunately, this Administration has let down our returning 
service members and we need to reaffirm our commitment to these brave 
men and women.
    Therefore, I am honored to have introduced H.R. 3481, the House 
companion to Senators Dodd and Clinton's legislation, S.1975, which 
amends the FMLA to provide 6 months of leave for spouses, children, 
parents and other ``next of kin'' to care for injured service members.
    This legislation incorporates one of the recommendations of the 
President's Commission on Care for America's Returning Wounded 
Warriors, chaired by Secretary Shalala and Senator Dole.
    It is the least we can do and hopefully we can do more.
    I look forward to the testimony today on this very critical issue.
                                 ______
                                 
    Mr. Wilson. Good afternoon.
    Thank you, Madam Chair.
    When they arrive, I want to welcome each of our witnesses.
    Indeed, Senator Dodd, I am confident we can stay through 
and hear your testimony.
    We want to welcome our colleagues from the other body and 
our colleague in the House, my good friend and neighbor, Mr. 
Issa, and of course, our witnesses on the second panel, in 
particular Ms. Wade, who does us a great honor by being here 
today.
    As a 31-year veteran of the Army National Guard and the 
grateful father of four sons currently serving in the military, 
I understand the challenges of our military families that they 
face each and every day. They deserve our utmost respect and 
admiration.
    Earlier this year, President Bush, by way of Executive 
order, created the President's Commission on Care for America's 
Returning Wounded Warriors. The Commission, led by former 
Senate Majority Leader Bob Dole and former Secretary of Health 
and Human Services Donna Shalala, examined and made 
recommendations to improve the care benefit and support 
provided to America's wounded service men and women.
    In July 2007, the Commission delivered its final report to 
the President. One of its recommendations was that Congress 
amend the Family and Medical Leave Act to provide extended care 
to relatives caring for combat-related injured servicemembers. 
President Bush has endorsed this recommendation. Indeed, no one 
in this room could find a more worthy goal than ensuring 
workers are not forced to choose between their jobs and caring 
for an injured family member who has served his or her country.
    I am particularly interested today in hearing testimony 
from our witnesses regarding their reasons for supporting 
expanded leave for military caregivers. Additionally, I hope 
they will share their views on the various other proposals 
before Congress.
    Finally, I want it noted for the record that today's 
hearing is one of the first in this Congress where we have 
begun to look at the Family and Medical Leave Act. This 
statute, which now has been on the books for almost 15 years, 
is working well in some instances but not as well in others.
    We are all united in our support of military families 
today, and that makes our task of legislating easier. But I 
would caution my colleagues that there are a number of policy 
issues surrounding the Family and Medical Leave Act that do not 
lend themselves to unanimous support.
    I hope that, after today, this subcommittee and our 
committee as a whole does not shy away from that debate but, 
rather, turns to face some of the tough questions that have 
arisen under the law. That is the debate for another day but 
one that we must commit to having.
    With that, I look forward to today's testimony, and I yield 
back the balance of my time.

   Prepared Statement of Hon. Joe Wilson, Senior Republican Member, 
                 Subcommittee on Workforce Protections

    Good afternoon, and thank you, Madam Chair. I want to welcome each 
of our witnesses--our colleagues from the other body, our colleague in 
the House, my good friend and hall neighbor Mr. Issa, and of course, 
our witnesses on the second panel, in particular, Ms. Wade, who does us 
a great honor being here today.
    As a 31 year veteran of the Army National Guard and proud father of 
four sons currently serving in the military, I understand the 
challenges our military families face each and every day. They deserve 
our utmost respect and admiration.
    Earlier this year, President Bush, by way of Executive Order, 
created the President's Commission on Care for America's Returning 
Wounded Warriors. The Commission, led by former Senate Majority Leader 
Bob Dole and former Secretary of Health and Human Services Donna 
Shalala, examined and made recommendations to improve the care, 
benefit, and support provided to America's wounded servicemen and 
women.
    In July 2007, the Commission delivered its final report to the 
President. One of its recommendations was that Congress amend the 
Family and Medical Leave Act to provide extended leave to relatives 
caring for combat-related injured service members. President Bush has 
endorsed this recommendation. Indeed, no one in this room could find a 
more worthy goal than ensuring workers are not forced to choose between 
their job and caring for an injured family member who has served his or 
her country.
    I am particularly interested today in hearing testimonies from our 
witnesses regarding their reasons for supporting an expanded leave for 
military caregivers. Additionally, I hope they will share their views 
on the various proposals before Congress.
    Finally, I would note for the record--today's hearing is one of the 
first in this Congress where we have begun to look at the Family and 
Medical Leave Act. This statute which has now been on the books for 
almost fifteen years is working well in some instances but not as well 
in others. We are all united in our support of military families today, 
and that makes our task of legislating easier. But I would caution my 
colleagues that there are a number of policy issues surrounding the 
Family and Medical Leave Act that do not lend themselves to unanimous 
support. I hope that after today this Subcommittee and our Committee as 
a whole does not shy away from that debate, but rather turn to face 
some of the tough questions that have arisen under the law. That is a 
debate for another day, but one that we must commit to having.
    With that, I look forward to today's testimony, and yield back the 
balance of my time.
                                 ______
                                 
    Chairwoman Woolsey. Thank you, Mr. Wilson.
    I now have the honor of introducing our distinguished first 
panel and to welcome Senator Dodd. And I think we will probably 
drag Representative Issa up after the votes, but we will get to 
hear from the Senator first.
    But I think you know that the lights--you have worked here. 
You know the green light means go, and the yellow light means 
you are almost finished, and the red light means wrap it up as 
soon as you can.
    We are going to hear from Senator Dodd first. Senator 
Christopher Dodd is the senior senator from Connecticut who has 
tirelessly fought for working families, and did that before the 
enactment of the Family and Medical Leave Act, which was signed 
into law in 1993. As the Chair of the Senate Subcommittee on 
Children and Families, the Senator has continued to help 
working men and women by authoring the Family and Medical Leave 
Expansion Act and the Family Leave Insurance Act, which would 
provide paid leave for employees.
    Earlier this year, he worked closely with Senator Clinton 
and a bipartisan coalition of senators to write S. 1975, the 
Support for Injured Servicemembers Act, which would help 
provide 6 months of family and medical leave, as I said, for 
military families.
    Senator, the floor is yours. Thank you for joining us.

  STATEMENT OF HON. CHRISTOPHER DODD, A U.S. SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Senator Dodd. Thank you very much, Madam Chairman.
    It is good to be back in the House. I started out here with 
a head of black hair a number of years ago, but to come back 
here and to return to the House is always a pleasure. I always 
said the ideal job in politics would be a 6-year term in the 
House. That always gets an applause on the House side.
    Anyway, thank you very much for inviting us to come by 
today, and I am delighted to be able to participate in this 
hearing and to encourage support for this very important piece 
of legislation.
    Congressman Wilson, it is good to be with you, as well, and 
with other members of the committee who have come out here this 
afternoon to hear this testimony.
    I am very proud to have worked, as you pointed out, with 
former Senator Bob Dole, the majority leader, on this 
legislative effort to expand the Family and Medical Leave Act.
    And I will apologize in advance, and I regret--I have read 
the testimony, and I want to thank Sarah Wade, particularly. It 
is not an easy thing to come before a congressional committee 
and talk about matters as personal as your family and what she 
has been through and what her husband has been through, 
particularly what her husband has been through, and to 
recognize that someone lost a job because they were taking care 
of their spouse coming back from a theater of conflict in war 
where they have given everything on behalf of our country. 
Whether you agree or disagree with the policies, none of us has 
anything but the highest admiration for those who are serving 
in very difficult theaters of conflict.
    So, to you, Mrs. Wade, we thank you immensely.
    I want to thank Jessica Perdew, as well, from the National 
Military Family Association, for her work and for the work of 
her association on behalf of military families.
    Debra Ness has been a wonderful friend for many, many years 
and was very instrumental and involved with family and medical 
leave for the National Partnership for Women and Families.
    I want to thank them, as well. I know they are your second 
panel coming up here.
    Madam Chairman, I will ask for consent that the entire 
context of these remarks be included in your record, and I will 
try and just paraphrase as much of it as I can, to move things 
along for you.
    Chairwoman Woolsey. Without objection.
    Senator Dodd. I appreciate Bob Dole asking me to draft this 
legislation to implement one of the key recommendations, as I 
am sure all of you know, put forth by the President's 
Commission on Care for America's Returning Wounded Warriors. As 
co-chairs of the Wounded Warriors Commission, Senator Dole and 
the former Secretary of Health and Human Services, Donna 
Shalala, deserve our gratitude. And I think all of us commend 
them for their thoughtful work in developing the Commission's 
report.
    I also want to take a moment to note that I am both pleased 
and extremely grateful for the bipartisan support from Senate 
colleagues. We spent a lot of time talking about the divisions 
that exist here. Not enough time is spent on the matters, but 
we actually work very closely together to get the job done.
    You have already mentioned my colleague from New York, 
Senator Clinton, who has been deeply involved in these issues 
and cares about them very much and has for many, many years 
here. And I am grateful to her for her participation and 
support, along with Senator Dole and Senators Graham, Kennedy, 
Chambliss, Reed of Rhode Island, Senator Mikulski, Senator 
Murray, Senator Salazar, Senators Lieberman, Menendez, Brown, 
Nelson of Nebraska, Cardin and, I presume, others, as well. 
They were all part of this effort here to bring this bill to 
the successful unanimous adoption by the United States Senate 
as part of the Children's Health Insurance Program a few weeks 
ago.
    As you pointed out, Madam Chairman, 14 years ago, I started 
on this journey of family and medical leave, and I would be 
very remiss, particularly in this body, if I failed to mention 
the name of Pat Schroeder, Patricia Schroeder, who was really 
the person who originated the idea. That day of the bill 
signing in February of 1993, she was not included to stand on 
the podium in the Rose Garden at the White House, and I have 
always regretted it deeply because she should have been there. 
She was really the person who initiated the idea.
    I authored the bill in the United States Senate, and as you 
pointed out, it took three presidents, 7 years and two vetoes 
to end up with a bill. And I should point out that it never 
would have happened without the support of Arlen Specter and my 
good friends, as well, Kit Bond of Missouri, Dan Coates of 
Indiana; Senator Kennedy was tremendously influential. It was a 
bipartisan effort. It took a long time, but we ended up 
adopting that legislation.
    Today, 14 years later, 50 million Americans have been able 
to take advantage of this protection of caring for a sick loved 
one, to recover from an illness or to welcome a new child into 
the family, among other things. After an amount of time, we see 
that the debate is no longer about whether Americans have a 
right to its protections but, rather, about how best to expand 
those rights.
    And I can say without reservation that no one is more 
deserving of those protections than those who risk their lives 
in the service of our Nation. Most of all, of course, wounded 
soldiers deserve the care of their closest loved ones. That is 
exactly what we have offered in the Support of Injured 
Servicemen's Act, which you are proposing here, and what was 
recommended by the Commission headed by Senator Dole and Donna 
Shalala.
    It should come as no surprise that the Commission found 
that family members play a critical role in the recovery of 
wounded servicemembers. In fact, Madam Chairman, I will never 
forget Dr. C. Everett Koop, who was one of the critical 
witnesses. It was one of those votes I regret having made. I 
voted against Dr. Koop, when his confirmation was up years ago 
in the Senate. After he retired, I wrote a letter and put it 
into the Congressional Record, apologizing for the vote. He 
turned out to be a remarkable Surgeon General.
    One of the things he did was to come and stress and testify 
very forcefully, contrary to the administration's position, as 
someone who is a pediatric surgeon, the importance of having 
family members around during time of recovery. And he made 
eloquent testimony some 15 or 16 years ago about the importance 
of family members being with a loved one as you go through the 
recovery from an illness or an injury. Certainly, that is what 
we are trying here to achieve for people coming out of the 
theaters of conflict.
    The commitment shown by families and friends of our troops 
is truly inspiring. According to the Commission report--and 
these two numbers I found rather startling--33 percent of 
active-duty servicemembers report that a family member or a 
close friend had to relocate in order to be with them during 
the periods of recovery, and that one out of five actually lost 
his job as a result of doing so, as you are going to hear from 
Sarah Wade here.
    I think those two statistics had a lot to do with the 
recommendation by the Commission, the idea that people have to 
relocate to take care of a loved one and that as many as 20 
percent, or over 20 percent, actually lost employment as a 
result of making that decision.
    In fact, the Commission's report points out and says, and I 
quote, ``In virtually every case of a wounded serviceman, a 
wife, husband, parent, brother or sister has received the 
heart-stopping telephone call telling them that their loved one 
is sick/injured from halfway around the world. These loved ones 
bear a tremendous burden, and to add the fear of losing their 
employment or their jobs is more than one should demand from 
these families.''
    How could we be unmoved by the stories as that of Sarah 
Wade, whose husband lost an arm and suffered a severe, 
traumatic brain injury in Iraq? Mrs. Wade was fired from her 
job for spending too many months helping her husband 
recuperate, because she had, to quote her employer, ``a lot 
going on,'' end of quote, in her life.
    It is true, thousands of families like hers will have ``a 
lot going on'' in their lives until the day their soldiers' 
recoveries are complete. They will have ``a lot going on'' 
because their loved ones sacrificed parts of their bodies for 
our country. At the very least, we can give those families the 
assurance that Sarah Wade never had, the assurance that, when 
they have returned from caring for the wounded, their jobs will 
still be there for them.
    With an all-volunteer military, supporting our military 
families is more essential today than ever.
    I, too, Congressman, served in the National Guard and Army 
Reserves. Thomas Jefferson was President when I did it in those 
days, going back. But the old saying here, ``We recruit 
soldiers, but we retain families,'' is an old saying, but it 
has true merit and value. Certainly, this point we are making 
here today emphasizes that particular point.
    That is why the Commission recommended that family and 
medical leave be expanded to provide family members of combat-
injured servicemen up to 6 months of leave to care for their 
loved ones. And those 6 months are vital. According to the 
staff at Walter Reed, 6 months is the average length of time an 
injured servicemember needs to recover self-sufficiency. So the 
period of 6 months is not taken arbitrarily out of thin air. It 
was a number derived from those at Walter Reed who gave us the 
indication or who gave the Commission the idea of the amount of 
time that would be necessary.
    For the first time, this bill offers family and medical 
leave not just to parents, spouses and children, but to next of 
kin, including siblings. Families, not the government, should 
decide for themselves who takes on the work of caring for their 
injured loved ones. This legislation recognizes that fact, and 
it is a major accomplishment in this bill. But it is just a 
first step, in my view, in the support that our military 
families need.
    Since its passage in the Senate, I have sought to expand, 
as you pointed out, family and medical leave to include more 
employees, particularly in small businesses. When we wrote the 
legislation initially, I set the standard pretty high because 
we were going through a difficult time, and I stuck with those 
numbers even when Congress changed in 1994.
    But, nonetheless, to expand that definition of who is a 
caregiver is what we have done here and also to provide some 
means of providing paid leave. A staggering number of people 
who would otherwise qualify for leave could not afford to do it 
for the periods necessary, so we are trying to fashion it in a 
bipartisan fashion. Senator Ted Stevens of Alaska has been very 
cooperative and helpful with me on this particular point, in 
trying to fashion a paid leave proposal. And we hope to have 
something to present fairly shortly in that regard.
    For many years, I have worked to build on the proven 
success of the Family and Medical Leave Act and have been 
driven by my strong belief that more Americans are deserving of 
its protections. Certainly, I continue these efforts and seek 
additional resources for our military families, such as 
comprehensive child care, but we will focus on passing this 
bill as soon as possible.
    I deeply appreciate the partnership of Chairwoman Woolsey 
in this regard, along with Chairman George Miller, who 
introduced companion legislation along with that which we have 
done in the Senate. I would also like to recognize Congressman 
Altmire, who, I understand, was very involved in this as well, 
and I want to commend him for his work on behalf of expanding 
family and medical leave for our military families.
    Our full debt to our troops is unpayable, of course, but 
perhaps the best thing we could do for them is to get out of 
the way and to make it possible for the love of a family to 
help heal their wounds. What this legislation does, then, is to 
break down the barriers, the barriers between our troops and 
the care they need most.
    In conclusion, Madam Chairman, the support for injured 
servicemen offers just one of the critical ways in which we can 
better assist our military families. In a few moments, you are 
going to hear from a group of people who truly understand the 
challenges facing our soldiers and their families. They have my 
admiration and my gratitude. And I look forward to working with 
all of them, including, as I said earlier, my longtime ally in 
so many of these issues, Debra Ness of the National Partnership 
for Women and Families. Together, we can provide critical 
support, I believe, for working families who sacrifice so much 
for the collective safety and security of our country.
    And I am deeply grateful to the subcommittee for giving me 
a chance to talk about the issue and to thank all of you for 
your commitment to this cause, as well.
    [The statement of Senator Dodd follows:]

Prepared Statement of Hon. Christopher J. Dodd, a U.S. Senator From the 
                          State of Connecticut

    Chairwoman Woolsey, Ranking Member Wilson, and distinguished 
committee members: Thank you for this opportunity to testify on a 
measure vitally important to our troops and their families.
    I am very proud to have worked with former Senate Majority Leader 
Bob Dole on this legislative effort to expand FMLA for military 
families. Unfortunately, Senator Dole is unable to be here today. 
Nonetheless, I deeply appreciate his asking me to draft this essential 
legislation to implement one of the key recommendations put forth by 
the President's Commission on Care for America's Returning Wounded 
Warriors.
    As co-chairs of the Wounded Warriors Commission, Senator Dole and 
former Secretary of Health and Human Services Donna Shalala deserve our 
gratitude and I commend them for their thoughtful work in developing 
the Commission's report. I also want to take a moment to note that I am 
both pleased, and extremely grateful for, the bi-partisan support from 
my Senate colleagues including: Senator Clinton, the bill's cosponsor 
and Senators Dole, Graham, Kennedy, Chambliss, Reed, Mikulski, Murray, 
Salazar, Lieberman, Menendez, Brown, Nelson of Nebraska, and Cardin. 
Through the efforts of these colleagues just last month, this measure 
was unanimously adopted as an amendment to the Children's Health 
Insurance Program reauthorization.
    Fourteen years ago, the Family and Medical Leave Act (FMLA) 
declared a simple principle: workers should never be forced to choose 
between the jobs they need and the families they love. In the years 
since its passage, more than 50 million Americans have taken advantage 
of its protections to care for a sick loved one, recover from illness, 
or welcome a new baby into the family. And after the seven years, three 
presidents, and two vetoes it took to get the FMLA finally enacted into 
law, I am pleased to see that the debate is no longer about whether 
Americans have the right to its protections; but rather, about how it 
may best be expanded. I can say without reservation that no one is more 
deserving of those protections than those who risk their lives in the 
service of our country. Most of all, wounded soldiers deserve the care 
of their closest loved ones. That is exactly what I have offered in the 
Support for Injured Servicemembers Act.
    It should come as no surprise that the Commission found that family 
members play a critical role in the recovery of our wounded 
servicemembers. The commitment shown by the families and friends of our 
troops is truly inspiring. According to the Commission's report, 33 
percent of active duty servicemembers report that a family member or 
close friend relocated for extended periods of time to help in their 
recoveries. It also points out that 21 percent of active duty 
servicemembers say that their friends or family members gave up jobs to 
find the time to care for them. To quote from the Commission's moving 
report:
    ``In virtually every case [of a wounded servicemember], a wife, 
husband, parent, brother, or sister has received the heart stopping 
telephone call telling them that their loved one is sick, or injured, 
half way around the world.''
    These loved ones bear a tremendous burden. Add to that the fear of 
losing their jobs--it is more than we should demand from these 
families. How could we be unmoved by the story of Sarah Wade, whose 
husband lost an arm and suffered a severe traumatic brain injury in 
Iraq? Ms. Wade was fired from her job for spending too many months 
helping her husband recuperate--because she had, to quote her employer, 
``a lot going on'' in her life. It's true--thousands of families like 
hers will have ``a lot going on'' in their lives until the day their 
soldiers' recoveries are complete. They will have ``a lot going on,'' 
because their loved ones sacrificed parts of their bodies for our 
country. And the very least we can give those families is the assurance 
that Sarah Wade never had--the assurance that, when they have returned 
from caring for the wounded, their jobs will still be there.
    And with an all-volunteer military, supporting our military 
families is more essential today than ever: We recruit a soldier, but 
we retain a family. That is why the Commission recommended that FMLA be 
expanded to provide family members of combat-injured servicemembers up 
to six months of leave to care for their loved ones. And those six 
months are vital: according to staff at Walter Reed Medical Center, six 
months is the average length of time an injured servicemember needs to 
recover self-sufficiency. For the first time, this bill offers FMLA 
leave not just to parents, spouses, and children, but to next-of-kin, 
including siblings. Families--not the government--should decide for 
themselves who takes on the work of caring for their injured loved 
ones. This legislation recognizes that fact, and it's a major 
accomplishment. But it is just a first step in providing the support 
that our military families need.
    Since its passage, I have sought to expand FMLA to include more 
employees, particularly in small businesses, to expand the definition 
of who is a caregiver, and also to provide paid leave. For many years, 
I have worked to build on the proven success of the FMLA and have been 
driven by my strong belief that more Americans are deserving of its 
protections. I will continue these efforts and seek additional 
resources for our military families, such as comprehensive child care, 
but will focus on passing the Support for Injured Servicemembers Act as 
soon as possible.
    I deeply appreciate the partnership of Chairwoman Woolsey, along 
with Chairman Miller, who introduced companion legislation in the House 
of Representatives. I'd also like to recognize Congressman Altmire, who 
is here today, for his work on behalf of expanding FMLA for our 
military families. Our full debt to our troops is unpayable. But 
perhaps the best thing we can do for them is to get out of the way--to 
make it possible for the love of family to help heal their wounds. What 
this legislation does, then, is break down a barrier: the barrier 
between our troops and the care they need the most.
    In conclusion, the Support for Injured Servicemembers offers just 
one of the critical ways in which we can better assist our military 
families. In a few moments you will hear from a group of people who 
truly understand the challenges facing our soldiers and their families. 
They have my admiration and my gratitude, and I look forward to working 
with all of them, including my long-time ally Debra Ness of the 
National Partnership for Women and Families. Together, we can provide 
critical support to the working families who sacrifice so much for our 
collective safety and security.
    Again, I thank the subcommittee for the opportunity to testify 
today.
                                 ______
                                 
    Chairwoman Woolsey. And we thank you. We are not going to 
ask questions because we have to go vote.
    Senator Dodd. I understand that.
    Chairwoman Woolsey. Senator, we know how busy your schedule 
is, and we thank you for your participation. We thank you for 
authoring this legislation, and I am honored to be your House 
partner on that.
    Senator Dodd. I look forward to working with you.
    Chairwoman Woolsey. For everybody to know, we are going to 
try to get Representative Issa back here with us, and Senator 
Clinton will be showing up sometime during the hearing.
    Senator Dodd. Well, thank both of them for me, as well.
    Chairwoman Woolsey. I will. So thank you. It is great 
legislation.
    Senator Dodd. Thank you. It is nice to be with you.
    Chairwoman Woolsey. Thank you.
    Senator Dodd. Thank you.
    [Recess.]
    Chairwoman Woolsey. All right. Now we have the privilege--
first of all, Senator Clinton came by and left her statement 
for the record, and we will put it into the record.
    [The statement of Senator Clinton follows:]

Prepared Statement of Hon. Hillary Rodham Clinton, a U.S. Senator From 
                         the State of New York

    I want to thank Congresswoman Woolsey for holding this hearing and 
to all our witnesses for their testimony today.
    We have a duty to honor our veterans, service members, and their 
families--something I take very seriously as a Senator, a member of the 
Senate Armed Services Committee, and an American. It is a duty that 
cuts across party lines and cuts to the heart of our values as a 
nation.
    I have met with so many veterans and service members who have told 
me about the difficult and dangerous situations they faced on the 
battlefield. All too often, they have returned home only to face new 
battles just to get the treatment and care they need and deserve: 
enduring deplorable conditions at Walter Reed; navigating a maze of 
bureaucracy to receive disability benefits; visiting VA Hospitals in 
need of guaranteed funding; struggling to re-enter civilian life.
    In July, the bipartisan Commission on Care for America's Returning 
Wounded Warriors--chaired by former Senator Bob Dole and former 
Secretary of Health and Human Services Donna Shalala--issued its final 
report on the need to reform the medical care our troops and veterans 
receive.
    The Commission visited 23 treatment facilities run by the 
Department of Defense, the Department of Veterans Affairs, and the 
private-sector. Literally thousands of service members, veterans, 
family members, and health care personnel submitted their personal 
stories as well.
    Based on its review, the commission recommended that one important 
way in which our nation can strengthen the help we provide injured 
service members is by improving and expanding support for military 
families through the Family and Medical Leave Act. That is why I am 
proud to partner with my friend Chris Dodd in championing the ``Support 
for Injured Servicemembers Act of 2007,'' which implements this key 
recommendation of the commission's report.
    We have introduced this legislation as a stand-alone bill, and we 
successfully passed our amendment through the Senate as part of the 
Children's Health Insurance Program legislation. We've also introduced 
our measure as an amendment to the Senate's Defense Authorization 
legislation. And we have received substantial bipartisan support, 
including from Senators Dole, Graham, Mikulski, Chambliss, Brown, 
Cardin, Menendez, Salazar, Kennedy, Reed, Boxer, Murray, Lieberman, and 
Roberts.
    The Family and Medical Leave Act was the first bill signed into law 
during the Clinton Administration. It has helped more than 60 million 
men and women trying to balance the demands of work and family. I 
believe it is time to strengthen that Act for military families. Our 
legislation provides up to six months of job-protected leave for 
spouses, children, parents or next of kin of service members who suffer 
from a combat-related injury or illness.
    The families of service men and women face extraordinary demands in 
caring for loved ones injured in service to our nation. And currently, 
these spouses, parents and children can receive only twelve weeks of 
leave under the Family and Medical Leave Act. As the Dole-Shalala 
Commission found, all too often, this is just not enough time--as 
injured service members grapple with traumatic brain injuries, severe 
physical wounds, and other problems upon returning home from Iraq, 
Afghanistan, and elsewhere.
    In fact, 33 percent of active duty, 22 percent of reservists, and 
37 percent of retired service members reported to the Commission that a 
family member or close friend had to leave their homes for extended 
periods of time to help them in the hospital. About 20 percent said 
friends or family gave up a job to be with them or act as their 
caregiver.
    Imagine: your husband or wife, son or daughter, returns from Iraq 
with an serious injury. You want to be with them and take care of them. 
Right now, you have to choose between the person you love and the job 
you need. That's not a choice military families should have to make. If 
you are injured in service to this country, we should not add insult to 
injury by failing to do everything we can to help you when you get 
home.
    These men and women took on great risk and sacrifice to protect our 
nation. Doing right by them and their families is not a Democratic 
issue or a Republican issue. It is a matter of America's values and 
moral responsibility.
    This is a step we can take immediately that will make a real 
difference. Our men and women in uniform have made tremendous 
sacrifices on our behalf. As a nation and as citizens we have a duty in 
return. Thank you.
                                 ______
                                 
    Chairwoman Woolsey. We are sorry we missed her, but we are 
delighted to have Representative Darrell Issa here.
    Actually, Representative Issa was elected in the year 2001. 
Today, he represents California's 49th District. He serves as 
the ranking member on the House Domestic Policy Subcommittee of 
the Government Reform Committee.
    He has been active in advocating the expansion of the 
Family and Medical Leave Act to enable working family members 
to care for their wounded loved ones, and he is the sponsor of 
bipartisan legislation H.R. 3391, the Military Family and 
Medical Leave Act.
    Congressman Issa was commissioned as a U.S. Army officer, 
and he later attained the rank of captain.
    So, Captain Issa, thank you for being here.

 STATEMENT OF HON. DARRELL ISSA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Issa. Thank you, Madam Chair and Ranking Member Wilson. 
I appreciate your holding this hearing today on an important 
and overdue issue.
    I would also like to thank Senator Dodd and Senator 
Clinton, who, as you mentioned, are bipartisan supporters of 
this bill and of what we are trying to do; additionally, 
Congressman Rahall, who also has been a leader on this issue 
and who is a cosponsor of H.R. 3391.
    I would like to take just a moment, if I may, to talk a 
little bit about the history of what we are trying to 
accomplish here today. The Family and Medical Leave Act 
emphasizes leave, but, in fact, legislation that has come 
before this, like this, is not about leave; it is about return.
    The fact is anybody can--and today, huge numbers of people 
do--leave their jobs/lose their jobs in order to care for loved 
ones. Prior to 1940, military members, particularly Reservists, 
left their jobs to serve in our military with no right of 
return.
    We changed that for veterans, beginning in 1940, with the 
Reemployment Rights Act and Selective Training and Service Act. 
It is a grandiose title, but all it really said was, if you go 
to serve your country, there will be a job for you when you 
return, and if that job is not available, effort will be made 
to find a reasonable equivalent.
    America, since 1945, the end of World War II, has had very 
little trouble absorbing the brave men and women who have come 
home from war. However, not everyone comes home the way they 
left. So, when we look at our service men and women coming 
home, they sometimes come home in need of, sometimes, fairly 
long rehabilitation periods, sometimes a period in which they 
will never be able to return to their jobs. But if they are to 
return to a productive life, in fact, if they are to live at 
all, it is very clear that we have an obligation to see that 
they have the caregivers who are most appropriate.
    With the passage of the Family and Medical Leave Act in 
1993, we made a decision as a body that, for the eligible 
employees, for the birth of a child, adoption, foster care or 
to care for a personal, immediate family member's health, it 
would be covered.
    What we are seeking to do here today, very appropriately, 
is to extend the recognition that we have a tremendous number 
of our men and women who are serving in the military who are 
coming home in need of special care, and today, they are not 
covered for the people who we would have take care of their 
needs, whether it is the effects of IEDs, the traumatic brain 
injuries, amputees, spinal cord injuries. These are not 
overnight remedies, and they need their best ally.
    Our legislation is nothing more, I believe today, than an 
extension of a direction that Congress began in 1940, but it is 
an important extension. It is an extension whose time has come 
and certainly one that is critical in what is often a 
controversial war but not as to those men and women who go to 
serve in it.
    So, if you have any questions, which I do not believe you 
do, but I would be glad to take them.
    Thanks, Lynn.
    What I would say is that the extension of the 26 weeks, the 
definitions, these are intended to be narrow extensions on a 
continuum. And, in closing, what I would say, on a bipartisan 
basis, is that, regardless of how legislation finally ends up, 
let us all be committed that we must get legislation passed. If 
we do a little less but we get done the basics today, I commit 
to come back and to do more.
    And there are many who say, ``Well, we have to do more in 
this one bite, and we have to include beyond the scope,'' at 
least of what I have drafted. I do not disagree that that may 
be worthwhile.
    What I hope this committee will focus on, and the Senate 
too, is that we must get legislation passed that does good for 
those who, today, as we speak, are choosing between caring for 
a loved one injured in support of our country or keeping their 
job. That is not a decision that men and women should be forced 
to make when they serve in the military, and certainly, it is 
not for those who care for those who come home.
    I thank the gentlelady for her time, and I thank the 
ranking member.
    [The statement of Mr. Issa follows:]

    Prepared Statement of Hon. Darrell E. Issa, a Representative in 
                 Congress From the State of California

    Testimony by Congressman Darrell Issa before the Committee on 
Education and Labor, Subcommittee on Workforce Protections for 
September 18, 2007
    Chairwoman Woolsey, and the Subcommittee on Workforce Protections, 
thank you for inviting me to speak today. I also thank Senator Dodd, 
Senator Clinton, and the bi-partisan Senate delegation for their 
leadership on this issue. As well, I'd like to thank Congressman Rahall 
for joining me as a leader in the House on this issue by cosponsoring 
my bill H.R. 3391.
    While the title of the law we examine today, the Family and Medical 
Leave Act, emphasizes ``leave,'' the discussion is truly about the 
return. What level of care will we as a nation provide to our military 
upon their return? In this case the answer does not involve money. It 
is about the power of family and the commitment of our communities to 
rebuilding lives after military service.
    The history of protecting civilian employment rights for active 
military and veterans began in 1940 with the Veterans Reemployment 
Rights Act and the Selective Training and Service Act. Over time, work 
protections have been expanded and clarified. In 1994, the Uniformed 
Services Employment and Reemployment Rights Act entitled a military 
member to return to his or her civilian job upon return from uniformed 
services.
    With the passage of the Family and Medical Leave Act in 1993, 
employment protections were extended beyond the scope of the military 
to include eligible employees for the birth of a child, adoption, 
foster care, and the care of personal or immediate family member 
health.
    Now, in 2007, employment protections can come full circle to 
incorporate leave for service members and their families.
    The need to discuss the expansion of the Family Medical and Medical 
Leave Act for the family of our wounded service members is 
unmistakable. Today, our military men and women are surviving combat-
related injuries that even a generation ago, would have been 
impossible.
    The President's Commission on Care for America's Returning Wounded 
Warriors estimated 11% of the wounded received Seriously Injured 
status. Over 9% of the wounded have Traumatic Brain Injuries, 2% are 
amputees, 2% are seriously burned, 1% have spinal cord injuries, less 
than 1% are blinded, and 1.4% are polytrauma patients.
    Health studies show that regular family support is a critical 
component of patient recovery. Physicians often regard the family as 
the ``ally'' in combating illness, as they are the daily support for 
recovering patients. Studies have shown that their time and presence 
directly corresponds to the improvement of individual health. Family 
participation in healthcare is vital to both the demanding physical and 
mental needs of recovery. According to both physicians and medical 
studies, the presence and participation of supportive relatives is 
essential to improving the health of an individual.
    The Commission found that families are keeping this important 
commitment to care, but often at the cost of continued employment. 
Approximately \1/3\ of service members indicated their family or close 
friends relocated for extended times to assist with care. Family 
members testified to the Commission that they have been forced to make 
the decision between their job and staying by their wounded family 
member's side during recovery. Between 15-20% reported close friends 
and family gave up a job to be by their side.
    My bill, H.R. 3391, responds to this need and follows the 
Commission's recommendation to expand the Family and Medical Leave Act 
to 26 weeks of leave for parents, spouses, and children caring for 
qualified wounded service members.
    The power of a strong support network and dedicated families is no 
more evident than in my Congressional District which includes Camp 
Pendleton Marine Corp Base. Here I have seen the Wounded Warrior Clinic 
and the Naval Hospital, where I have talked with the service members, 
their families, and health professionals who care for them. The 
positive impact of a regular family caretaker is never clearer than in 
the stories of their recovery. These men and women receiving care are 
determined and the community is strong and resolute in their 
commitment.
    I realize challenges exist in the expansion of this Act for 
military family leave. As a former business owner myself, I understand 
the difficulties of balancing employment demands. It is my sincere hope 
that we can find an appropriate balance in this discussion, so that 
employers will not just comply with an expansion of leave under the 
Family and Medical Leave Act, but will also embrace it.
    My bill, H.R. 3391, and many of the other legislative proposals are 
about giving our military members the best chance at recovery by 
allowing their family to provide support for an extended recovery 
period. Family care and support will strengthen our service member's 
likelihood of a return to the jobs retained for them by law.
    Again, thank you for this opportunity today. I am eager to work 
with my colleagues in the House and Senate to appropriately extend our 
country's commitment to our military and their dedicated families.
                                 ______
                                 
    Chairwoman Woolsey. I thank you for being here.
    We do not usually ask our members questions or have them 
grilled by us.
    Do you have a question, Joe?
    Mr. Wilson. Not a question.
    I would, again, like to commend Congressman Issa on his 
leadership. I am very grateful to be his neighbor on the 
hallway.
    Mr. Issa. Thank you, Colonel Wilson.
    Mr. Wilson. Indeed, as a colonel formerly in the South 
Carolina Army National Guard, I want to commend you on 
recognizing the re-employment rights, as this is an extension.
    I served as a staunch advocate for 25 years, lecturing at 
armories around the State on re-employment rights. What is very 
necessary now that we see is the opportunity for, in effect, 
re-employment by way of medical leave for family members to 
work with injured wounded warriors.
    So I want to thank you for what you are doing, and your 
analogy is right on point. And I appreciate your leadership 
here in Congress.
    I yield.
    Chairwoman Woolsey. I thank you.
    We thank you for taking time out of your busy schedule to 
be with us.
    Mr. Issa. No issue is more important than this. Truly, no 
issue is more important.
    And I will put my official statement in for the record.
    I thank the gentlelady.
    Chairwoman Woolsey. Thank you very much.
    Now the second panel will be seated.
    I now have the honor of introducing our distinguished 
second panel, and I will introduce them in the order that they 
will speak.
    First, Sarah Wade will speak. Sarah is the wife of retired 
Army Sergeant Edward ``Ted'' Wade. Following Ted's serious 
injury in Iraq on February 14, 2004, Sarah suspended her 
studies at the University of North Carolina at Chapel Hill to 
serve as an advocate for her husband. She has recently become a 
public policy intern at the Wounded Warrior Project, a 
nonprofit organization dedicated to assisting military 
personnel who are injured in Iraq and Afghanistan. Born and 
raised in the Washington, D.C., area, Sarah currently resides 
in Chapel Hill, North Carolina.
    I bet your folks are glad to have you home today.
    Jessica Perdew--Jessica has been the deputy director of 
government relations for the National Military Family 
Association since January 2007. A former Marine and a Marine 
spouse of 14 years, Ms. Perdew has also served in various 
volunteer leadership positions with several community 
organizations, including Key Volunteers and the Navy and Marine 
Corps Relief Society. Ms. Perdew is also a past president of 
the Marine Officers Spouses' Club of Washington, D.C. She 
received her bachelor of science degree from the University of 
Michigan at Ann Arbor.
    Christine Vion-Gillespie is the employee relations and 
compliance manager at SAS Institute in Cary, North Carolina, 
and is a member of the Society for Human Resource Management's 
Employee Relations Special Expertise Panel. She has over 16 
years' experience in human resources, and her current role 
includes providing counseling to help improve employee 
relations and to enhance the relationship between HR and 
organizations' business units. Ms. Vion-Gillespie also serves 
as an adjunct professor for Peace College.
    Debra Ness is the president of the National Partnership for 
Women and Families. She served as the executive vice president 
of the partnership for 13 years. Before coming to the National 
Partnership in 1991, Ms. Ness served in various positions at 
SEIU and at the National Abortion Rights League, NARAL. Ms. 
Ness graduated from Drew University with a bachelor's degree in 
psychology and sociology and received her master's of science 
from Columbia University's School of Social Work.
    Aren't we honored to have you all as our witnesses.
    Now, for those of you who did not hear me lecture the 
members of Congress who were up there, let me explain the 
lighting system. We have a 5-minute rule, so everyone, 
including the members, are limited to 5 minutes of presentation 
and/or questioning. So the green light is illuminated when you 
begin to speak. When you see the yellow light, it means you 
have 1 minute remaining. When you see the red light, it is time 
for you to conclude your testimony. We are not going to cut you 
off in mid-sentence or in mid-thought, believe me. So just know 
that that means you should be wrapping up.
    Turn on the microphone when you speak. Otherwise, we will 
all yell at you from up here. Turn it off when you are finished 
speaking.
    So we will now hear from our first witness, Ms. Wade.

STATEMENT OF SARAH WADE, PUBLIC POLICY INTERN, WOUNDED WARRIOR 
                            PROJECT

    Ms. Wade. Thank you for the opportunity to speak to you 
today regarding our experiences following my husband's injuries 
in Iraq.
    My husband joined the Army's 82nd Airborne Division during 
the summer of 2000. And following the attacks of September 
11th, his country called on him to serve first in Afghanistan 
and later in Iraq.
    On February 14, 2004, his Humvee was hit by an improvised 
explosive device on a mission in Mahmudiyah. He sustained a 
very severe, traumatic brain injury. His right arm was 
completely severed above the elbow. He suffered a fractured 
leg, a broken right foot, shrapnel injuries, and complications 
due to acute anemia, hyperglycemia, infections, and the 
withdrawal of life support was considered.
    Both Ted's parents and I flew to Germany to be by his side. 
Fortunately, after 2 weeks, he was stable enough to be 
transferred back to the United States. Ted remained in a coma 
for over 2\1/2\ months. After several weeks at Walter Reed Army 
Medical Center, Ted was discharged to the McGuire Veterans 
Medical Center in Richmond, Virginia, for brain injury care, 
where he remained for 5\1/2\ months.
    At that time, I started making the 320-mile roundtrip 
commute to North Carolina 3 days a week so I could work, so I 
would not lose our house or my job, and I withdrew from school. 
Ted's father, who lives and works in Georgia, worked out of a 
hotel in Richmond and took whirlwind trips to meetings, often a 
24-hour turnaround, for fear of losing his job so close to 
retirement. He also struggled to shoulder the financial burden 
to be near his son and to keep stride with Ted's medical 
evaluation board and physical evaluation board proceedings in 
Washington, D.C.
    Due to the nature of his injuries, one of us had to be with 
Ted every step of the way to oversee his medical care. During 
Ted's hospitalization, he was placed on the Temporary Disabled 
Retirement List, so we were also juggling the responsibilities 
of clearing him from Division in North Carolina and out-
processing him from the Army in Washington, D.C., while his 
care was ongoing in Virginia.
    Next, Ted was transferred to the Durham Veterans Medical 
Center near our home in Chapel Hill, North Carolina, and his 
parents were finally able to return to Georgia after having 
been away for 7 months. Ted was housed in the extended care 
facility, where he received maintenance care but no 
comprehensive rehabilitation for his multiple traumatic 
injuries.
    Unfortunately, the expertise he needed could not be 
provided in-house, nor did he have access to what civilian 
expertise there is in our local community. Therefore, we 
requested transfer back to Walter Reed. I was told Ted could 
return when he was discharged to outpatient status. He was also 
required to have a nonmedical attendant accompany him at all 
times, so I had to leave work again.
    Six months into Ted's prosthetic training at Walter Reed, 
however, he was forced to abandon his rehabilitation due to 
setbacks with his brain injury. The Army was not staffed to 
address nor able to get him help due to limitations of his 
temporary retirement status. Neurology advised that we seek 
specialty care elsewhere. And due to the lack of upper-
extremity resources near our home in North Carolina, it made 
the most sense to seek brain injury care in the Washington, 
D.C., area so Ted could continue his amputee rehabilitation at 
Walter Reed.
    However, because Ted was not on active duty, we were told 
that he was no longer eligible for the global war on terror 
supplemental funds required to care for him. In addition, 
TRICARE will only cover cognitive therapy in private facilities 
for active-duty servicemembers, and the VA can only contract 
fee-basis care through his home of record. Therefore, we were 
unable to access the brain injury care Ted so desperately 
needed in the Washington area.
    Before returning to North Carolina, we were able to 
convince VA that he absolutely had to have outside therapy. 
Through the world-class cognitive care Ted was offered at a 
private practice near our home, 15 months after he was 
initially injured, he slowly started to recover. Unfortunately, 
he is still unable to receive simultaneous treatment for his 
two primary injuries due to gaps in current policies, some of 
which I previously mentioned.
    Due to frequent travel to Walter Reed for services, I was 
unable the return to regular work or to my studies and would 
eventually be fired from my job because I had ``a lot going 
on'' in my life. Because his amputee and orthopedic 
rehabilitation is still ongoing, we are still in transition 3 
years and 7 months after the blast, and I am still unable to 
maintain employment. Needless to say, the long-term financial 
challenges faced by the care providers of our severely injured 
servicemembers are daunting.
    I have been blessed to have a family with the means and 
generosity to see us through these difficult times. Our 
situation is not typical, nor is the case of my father-in-law. 
Mr. Wade has graduate degrees in both business and chemical 
engineering and had been working for the same company for 33 
years at the time of Ted's injuries. Most family members do not 
have jobs that allow them to telecommute, as he did, for 6 
months nor the loyalty earned over a long and successful career 
in corporate America. Many family members, such as myself, work 
for small businesses, have a job where they work for tips or 
earn commission or are self-employed. If they do not work, they 
do not get paid or they may get fired. It is that simple.
    I am very pleased the committee is considering an extension 
of the Family and Medical Leave Act. However, I do hope that 
while you are reviewing ways to protect the employment of 
caregivers who clearly need more medical leave time than is 
allowed under current law, you also consider assistance to 
those who are not granted any leave at all. While this change 
would have been helpful to my father-in-law, those of us who 
work for small businesses or who are self-employed remain 
vulnerable.
    I want to thank you for the opportunity to share our 
experiences with you today. And I look forward to answering any 
questions you might ask.
    [The statement of Ms. Wade follows:]

Prepared Statement of Sarah Wade, Public Policy Intern, Wounded Warrior 
                                Project

    Thank you for the opportunity to speak to you today regarding our 
experiences following my husband's injuries in Iraq. My name is Sarah 
Wade. I am the wife of SGT Edward Wade, or Ted as most people know him. 
My husband joined the Army's 82nd Airborne Division during the summer 
of 2000, and following the attacks of September 11, his country called 
on him to serve first in Afghanistan and later Iraq. On February 14, 
2004, his humvee was hit by an Improvised Explosive Device (IED) on a 
mission in Al Mahmudiyah. He sustained a very severe Traumatic Brain 
Injury (TBI), his right arm was completely severed above the elbow, he 
suffered a fractured leg, a broken right foot, shrapnel injuries, and 
complications due to acute anemia, hyperglycemia, infections, and 
withdrawal of life support was considered. Both Ted's parents and I 
flew to Germany to be by his side, and, fortunately, after two weeks, 
he was stable enough to be transferred back to the United States. Ted 
remained in a coma for over 2\1/2\ months. After several weeks at 
Walter Reed Army Medical Center, Ted was discharged to the McGuire VA 
hospital in Richmond, Virginia for TBI care where he remained for 5\1/
2\ months.
    At that time I started making the 320 mile round trip commute to 
North Carolina three days a week to work so I would not lose our house 
or my job as a server and had to withdraw from school. Ted's father, 
who lives and works in Georgia, worked out of the hotel in Richmond and 
took whirlwind trips to meetings--often a twenty-four hour turnaround, 
for fear of losing his job so close to retirement. He also struggled to 
shoulder the financial burden to be near his son and keep stride with 
Ted's Medical Evaluation Board (MEB) and Physical Evaluation Board 
(PEB) proceedings in Washington, D.C. Due to the nature of his 
injuries, one of us had to be with Ted every step of the way to oversee 
his medical care. During Ted's hospitalization, he was placed on the 
Temporary Disabled Retirement List (TDRL) so we were also juggling the 
responsibilities of clearing him from Division in North Carolina and 
out processing him from the Army in Washington, D.C. while his care was 
ongoing in Virginia.
    Next, Ted was transferred to Durham near our home in Chapel Hill, 
North Carolina and his parents were finally able to return to their 
home in Georgia after having been away for seven months. Ted was housed 
in the extended care facility where he received maintenance care, but 
no comprehensive rehabilitation or treatment of his multiple traumatic 
injuries. Unfortunately, the expertise he needed could not be provided 
in-house nor did he have access to what civilian expertise there are in 
our local community. Therefore, we requested transfer back to Walter 
Reed. I was told he could return when he was discharged to outpatient 
status. Ted also required a non-medical attendant to accompany him at 
all times, so I had to leave work again.
    Six months into Ted's prosthetic training at Walter Reed, however, 
he was forced to abandon his rehabilitation due to setbacks with his 
TBI care that the Army was not staffed to address nor able to get him 
help due to the limitations of his TDRL status. Neurology advised we 
seek specialty care elsewhere, and due to the lack of upper extremity 
resources near our home in North Carolina, it made the most sense to 
seek TBI care in the Washington, DC area so Ted could continue his 
amputee rehabilitation at Walter Reed. However, because Ted was not on 
Active Duty we were told that he was no longer eligible for the Global 
War on Terror (supplemental) funds required to care for him. In 
addition, TRICARE will only cover cognitive therapy in private 
facilities for Active Duty Service Members, and the VA can only 
contract fee basis care through his home of record. Therefore, we were 
unable to access the TBI care Ted so desperately needed in the DC area.
    Before returning to North Carolina we were able to convince VA that 
he absolutely had to have outside therapy. Through the world-class 
cognitive care Ted was offered through private practice near our home, 
fifteen months after he was initially injured, he slowly started to 
recover. Unfortunately, he is still unable to receive simultaneous 
treatment for his two primary injuries due to the gaps in current 
policies, some of which I previously mentioned. Due to frequent travel 
to Walter Reed for services, I was unable to return to regular work or 
my studies and would eventually be fired from my job because I had ``a 
lot going on'' in my life. Because his amputee and orthopedic 
rehabilitation are still ongoing we are still ``in transition'' three 
years and seven months after the blast and I am still unable to 
maintain employment.
    Needless to say, the long term financial challenges faced by the 
care providers of our Severely Injured Service Members are daunting. I 
have been blessed to have a family with the means and generosity to see 
us through these difficult times. Our situation is not typical, nor is 
the case of my father-in-law. Mr. Wade has graduate degrees in both 
business and chemical engineering, and had been working for the same 
company for thirty-three years at the time of Ted's injuries. Most 
family members do not have jobs that allow them to telecommute as he 
did for six months, nor the loyalty built over a long and successful 
career in corporate America. Many family members, such as myself, work 
for small businesses or have a job where they work for tips or earn 
commission. Others are self-employed. If they are not at work, they do 
not get paid or they may get fired. It is that simple.
    I am very pleased the committee is considering an extension of the 
Family Leave Act. However, I do hope that while you are reviewing ways 
to better protect the employment of caregivers who clearly need more 
medical leave than is allowed under current law, you also consider 
assistance to those who are not granted any leave at all. While this 
change would have been very helpful to my father-in-law, those of us 
who work for small businesses or themselves remain vulnerable.
    I want to thank you again for the opportunity to share our 
experiences with you today, as our story is the story of so many other 
families, many worse off than ourselves. I look forward to answering 
any questions you may have.
                                 ______
                                 
    Chairwoman Woolsey. Ms. Perdew?

  STATEMENT OF JESSICA PERDEW, DEPUTY DIRECTOR OF GOVERNMENT 
        RELATIONS, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Perdew. Madam Chairman and distinguished members of the 
subcommittee, thank you for the opportunity to address some of 
the unique needs of military families with respect to the 
Family and Medical Leave Act.
    I have submitted a written statement, and request that it 
be entered into the record.
    Chairwoman Woolsey. Without objection.
    Ms. Perdew. My written statement outlines a variety of ways 
that NMFA believes Congress can modify the FMLA to provide 
additional protections to military family members.
    We have received far too many calls from military spouses 
and grandparents who have been denied time off to attend a 
predeployment briefing or to get a child settled into a new 
school arrangement. Each of these callers expresses frustration 
that there is no protection for them as military family 
members. Many are certain that there is some legislation out 
there that they just have not heard about. Sadly, this is not 
the case.
    We would like to focus our comments today, however, on a 
special group of military family members: the military family 
caregiver.
    Six years into the global war on terror, many military 
families are bearing the scars of protracted military action. 
Wounded servicemembers have wounded families, and these wounded 
families deserve better protection under the Family and Medical 
Leave Act.
    The current allowable leave period is insufficient for the 
serious injuries being incurred in combat. Servicemembers today 
are surviving injuries that would have been fatal in previous 
conflicts. While family members are thankful for these improved 
survival rates, the seriousness of these injuries requires 
months or even years of rehabilitative care. Twelve weeks may 
not be sufficient to allow a family member to remain by a 
wounded servicemember's bedside during the initial 
hospitalization. Once a wounded member moves from an inpatient 
to an outpatient status, the family member caregiver's role 
continues to be vitally important to the success of the 
treatment program.
    FMLA leave may also place a significant financial burden on 
military family caregivers. At a time when the family is 
dealing with tremendous emotional strain, can we also ask them 
to survive without their income? Many family members travel to 
the National Capital region to be with the wounded 
servicemember at Walter Reed Army Medical Center or the 
National Naval Medical Center at Bethesda. Even those families 
receiving travel reimbursement and lodging may have significant 
out-of-pocket expenses during their stay here. Asking families 
to shoulder these additional expenses while on unpaid leave is 
like adding insult to injury.
    Some States are breaking ground to provide partially paid 
family leave. California's paid family leave program is 
providing benefits to families who take leave to care for an 
ill or injured family member. Creating a similar benefit on the 
Federal level would ensure that every military family would be 
eligible for paid family leave.
    Finally, some military family members may not even qualify 
for FMLA. Military spouses move as frequently as their military 
sponsors. Obtaining 12 months of tenure with an employer may be 
impossible for a spouse who is moving every 24 months. Even 
those family members who move less frequently may be employed 
by a small business and be ineligible for FMLA leave.
    We must remember that not all military family caregivers 
are spouses or parents. Siblings of military members are also 
serving in this important role. Yet, siblings and other 
relatives do not qualify for benefits under the current FMLA 
program. These individuals must leave their homes and jobs to 
assume these caregiver roles. These issues impact military 
family caregivers each day.
    NMFA believes it is time to amend the FMLA with the focus 
on the family member caregivers of wounded servicemembers. As 
such, we recommend extending FMLA coverage to 26 weeks, 
providing a paid leave benefit to military family caregivers, 
waiving the 12-month qualification requirement for military 
family caregivers, and expanding the definition of coverage to 
include siblings of wounded servicemembers.
    Thank you, again, for the opportunity to share the needs of 
military families with you. I will be happy to answer any 
questions you have.
    [The statement of Ms. Perdew follows:]

  Prepared Statement of Jessica Perdew, Deputy Director of Government 
          Relations, the National Military Family Association

    The National Military Family Association (NMFA) is the only 
national organization whose sole focus is the military family. The 
Association's goal is to influence the development and implementation 
of policies that will improve the lives of those family members. Its 
mission is to serve the families of the seven uniformed services 
through education, information, and advocacy.
    Founded in 1969 as the National Military Wives Association, NMFA is 
a non-profit 501(c)(3) primarily volunteer organization. NMFA 
represents the interests of family members and survivors of active 
duty, reserve component, and retired personnel of the seven uniformed 
services: Army, Navy, Air Force, Marine Corps, Coast Guard, Public 
Health Service and the National Oceanic and Atmospheric Administration.
    NMFA Representatives in military communities worldwide provide a 
direct link between military families and NMFA staff in the nation's 
capital. Representatives are the ``eyes and ears'' of NMFA, bringing 
shared local concerns to national attention.
    NMFA does not have or receive federal grants or contracts.
    NMFA's website is: http://www.nmfa.org.
    Jessica Perdew joined the National Military Family Association 
Government Relations staff in 2005 as Legislative Administrative 
Assistant. In January 2007 she was selected to serve as Deputy Director 
in the Government Relations Department In this position, she follows 
issues such as pay and compensation, housing, taxes, family member 
employment, financial literacy, commissary, and exchange as well as 
other issues relevant to the quality of life of the families of the 
seven uniformed services. She is a regular contributor to several 
publications including Military Money and Military Spouse magazines. 
Mrs. Perdew serves on the Military Construction/ MWR/ Exchanges 
Committee, the Taxes/ Social Security Committee and the Committee on 
Military Personnel, Compensation and Commissaries of The Military 
Coalition. In addition she represents military families on the Military 
Saves National Partners Committee.
    A former Marine and a Marine spouse of 14 years, Mrs. Perdew has 
served in various volunteer leadership positions in civilian and 
military community organizations including Key Volunteers, Navy and 
Marine Corps Relief Society, Volunteer Income Tax Assistance (VITA), 
and Marine Spouse Clubs. She is a graduate of the University of 
Michigan in Ann Arbor with a Bachelor of Science in Physics and is 
currently pursuing a second Bachelors degree in Accounting through the 
University of Maryland.
    In addition to her work at NMFA, Mrs. Perdew is a past President of 
the Marine Officers' Spouses' Club of Washington D.C. and is currently 
serving as the Coordinator of the Joint Armed Forces Officers Wives 
Luncheon Committee. She is also a volunteer in the youth office at St. 
Mark Church in Vienna, Virginia. Mrs. Perdew and her husband, 
Lieutenant Colonel Jason Perdew, reside in Vienna, Virginia with their 
four children.
    Madame Chairman and Distinguished Members of this Subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony today workplace challenges facing 
military family members.
    Today's military is comprised of predominantly young adults under 
the age of 35. Sixty-six percent of military spouses are in the labor 
force, including 87 percent of junior enlisted spouses (E-1 to E-5). 
For many, working to pay bills and cover basic expenses is the primary 
reason for working. Studies show the gap between the financial well-
being of military families and their civilian peers is largely due to 
the frequent moves required of the military family and the resulting 
disruptions to the career progression of the military spouse. In a 2005 
report by the RAND Corporation, Working Around the Military: Challenges 
to Military Spouse Employment and Education, researchers found that 
military spouses, when compared to their civilian counterparts, were 
more likely to live in metropolitan areas and are more likely to have 
graduated from high school and have some college.
    Yet the RAND study found that, all things being equal, military 
spouses' civilian counterparts tended to have better employment 
outcomes and higher wages. Surveys show a military spouse's income is a 
major contributor to the family's financial well-being and the military 
spouse unemployment rate is much higher (10 percent) than the national 
rate. The loss of the spouse's income at exactly the time when the 
family is facing the cost of a government ordered move is further 
exacerbated when the spouse is unable to collect unemployment 
compensation in most states. Lacking the financial cushion provided by 
the receipt of unemployment compensation, the military spouse must 
often settle for ``any job that pays the bills'' rather than being able 
to search for a job that is commensurate with his or her skills or 
career aspirations. This in turn hurts morale and affects recruitment 
and retention of the service member.
    Compounding these issues is the current operational tempo. Now six 
years into the Global War on Terror military families are tired. 
Repeated long deployments are taking their toll and stressing personal 
support systems to their breaking point. This fact is very evident 
among working spouses who are finding it more and more difficult to 
maintain their professional schedules while also meeting family 
obligations. National Military Family Association (NMFA) has not 
tracked the exact number of calls received from family members with 
workplace challenges, but there has been a considerable increase in the 
number of these calls in recent months.
    We believe the increase is a result of what NMFA refers to as the 
deployment spiral. Until recently, deployment was discussed in terms of 
a cycle that began with predeployment and ended with reintegration. 
Based upon an NMFA survey of military spouses in 2003 and a follow on 
survey in 2005, NMFA now believes that deployment more closely 
resembles a spiral than a cycle. Families do not return to their 
original status at the end of a deployment. As a result, subsequent 
deployments begin from a different place. Families who had no children 
may now have toddlers. Other families may have experienced a divorce 
since the last deployment leaving the service member in a single parent 
role. Increasingly parents and siblings of service members are stepping 
into guardian roles while the service member deploys. In addition, the 
increase in end strength for the Army and Marine Corps is bringing many 
new families to the military. These families are struggling to adapt to 
a military lifestyle while coping with deployments.
    At the same time employers seem to be growing weary of the special 
demands military service is placing upon their employees. In some cases 
it appears employer goodwill with respect to flexibility and time off 
for military commitments has run out. Even Reserve component personnel 
called to active duty are finding many employers less willing to 
support military commitments. For service members there is employment 
protection under the Uniformed Services Employment and Reemployment 
Rights Act (USERRA). For military family members there is no such 
protection. Many times the non-military spouse is forced to choose 
between attending an important school event for a child who is missing 
a deployed parent, or losing a job that is keeping the family 
financially solvent. This is a stressful juggling act at best.
    This situation may be further exacerbated in National Guard and 
Reserve families where parents may work shifts to trade off child care 
responsibilities. When the service member is activated the spouse is 
forced to find child care and to make budget adjustments to cover this 
new and significant expense, along with adjusting to all of the other 
stresses a deployment brings. One spouse described her experience:
    ``As a National Guard spouse, I had to quit my high paying position 
(primary source of income and benefits) during my husband's deployment 
because of a combination of a long commute and daycare hours. My 
husband had drop off responsibilities so that I could commute before 
peak traffic hours. There is no protection or advocacy for guard and 
reserve spouse jobs. My family went from a comfortable standard of 
living to qualifying for food stamps in the year and a half after my 
husband's return because of the difficulty in finding a job that I 
could stick with through another potential deployment.''
    Military families, like all other families, need to spend time 
actively involved in their children's schools and activities. This 
becomes particularly important when a parent is deployed. It is 
imperative that the child experiencing a deployment be able to find 
comfort in normal family routines and activities. Imagine the stress 
and guilt that builds each time a parent or custodial grandparent must 
explain to his or her child why they won't be able to attend a school 
function. The Family and Medical Leave Act (FMLA) could be modified to 
permit these parents and guardians the opportunity to attend these 
important events. Providing military parents and guardians up to four 
hours per month to attend school functions could have a tremendously 
positive impact on military children missing a deployed parent and 
dealing with deployment issues. NMFA is thankful that Chairman Woolsey 
recognizes and has championed the improvement of the lives of working 
families and the need for family friendly workplaces through the 
sponsorship of H.R. 2392.
    NMFA recommends FMLA be modified to include up four hours per month 
for military family members to attend school sponsored functions or 
military sponsored deployment related functions.
    As if the normal stresses of military life were not enough, many 
military families are now finding themselves in the role of caretaker 
for a wounded service member. In an instant a family's entire life can 
change. Regardless of a service member's marital status their families 
will be affected in some way by the injury. Family members are an 
integral part of the health care team. Their presence has been shown to 
improve the wounded service member's quality of life and aid in a 
speedy recovery.
    Congress must be cognizant of the caregiver. Family members have 
made the commitment to care for their loved one. We must acknowledge 
they are a part of the health care recovery team. The responsibilities 
shouldered by the family member caregiver provide relief to both the 
medical staff and health care system. Family member caregivers also 
help to reduce the total cost of care for the wounded service member by 
performing duties that would require paid staff in the absence of a 
family member. They advocate, transport, and move, along with their 
wounded loved one from Walter Reed Army Medical Center or the National 
Naval Medical Center at Bethesda, to a Poly-trauma center and follow on 
to other military treatment facilities or Veterans Administration 
health care facilities throughout the United States, often leaving 
their own lives and jobs behind. Congress must take into consideration 
the economic impact on families who decide to remain by the bedside to 
provide care for their injured loved one. Families may voluntarily 
choose to leave their jobs for a variety of reasons. They may desire to 
spend as much time as possible with the wounded service member. The 
overwhelming challenges of trying to care for and navigate the 
Department of Defense and Department of Veterans Affairs complex health 
care systems may make it impossible to meet professional and increasing 
family demands. Or, they may need to relocate for an extended period of 
time to be with the injured service member or veteran to a location 
that can provide the optimum quality of care.
    Certainly FMLA provides some protection for the families of wounded 
service members. But, the reality is the time permitted under FMLA is 
not sufficient for the severely wounded. Chairman Woolsey's ``Support 
for Injured Servicemembers Act'', H.R. 3481, would provide a much 
needed extension to FMLA leave. NMFA is thankful that Congress 
recognizes the limitations in the current FMLA program and is working 
to overcome those limitations. In addition, many military spouses do 
not qualify for FMLA leave due to the mobile nature of the military 
lifestyle. For a spouse who moves every two or three years, accruing 12 
months of tenure with an employer may be a challenge. Even for family 
members who qualified for FMLA leave, financial circumstances may make 
leave without pay an impossible option. In the case of single service 
members who are wounded, it is often a parent, step-parent, or sibling 
who becomes the primary caregiver. Often the caregiver must terminate a 
position in order to care for their wounded loved one during their 
rehabilitation and recovery phase. Not only are these caregivers losing 
income, many times they lose their health care coverage, too. If the 
caregiver is a sibling, he or she is not currently eligible for any 
leave under FMLA. According to the National Naval Medical Center at 
Bethesda, the average age of an active duty Traumatic Brain Injury 
patient arriving at their health care facility is between 21 and 23. 
Many of these young service members are unmarried, placing parents and 
siblings in the caregiver role.
    State initiatives, such as California's Paid Family Leave (PFL) and 
the California Family Rights Act (CFRA) are providing much needed paid 
family leave. Providing a federal version of these programs would 
enable families caring for a wounded service member to concentrate on 
the service member's recovery, rather than worrying about the 
possibility of lost income. While some states are already providing 
these benefits, the time required to push these programs through the 
legislative process in every state would mean the families of many 
wounded service members might never benefit by their passage. These 
programs are needed on a consistent basis nationwide to ensure all 
military families are covered regardless of the duty station's 
location. Certainly, states could provide a more generous benefit if 
they desired but, the basic benefit would exist nationwide with the 
passage of national legislation.
    Primary Caregivers of wounded service members require increased 
protection. NMFA recommends:
    <bullet> Extending FMLA leave periods to at least 26 weeks per year
    <bullet> Exempting military family caregivers from the 12 month 
employment threshold
    <bullet> Providing a limited amount of paid family leave
    <bullet> Broadening the definition of eligibility by including 
those who are considered the primary caregiver
    <bullet> Providing some level of protection to employees in small 
businesses
    Military families serve along with their service members. The 
military lifestyle is not without sacrifice and families willingly 
accept the challenges inherent in military service. There is, however, 
a limit to the sacrifices that can be reasonably expected. No family 
should have to choose between paying the bills and caring for a 
seriously ill or wounded service member. No parent or guardian should 
be denied the opportunity to visit their child's school or attend an 
important event while a service member is forward deployed. Military 
families support the Nation's military missions. Modification of the 
FMLA not only provides important benefits to military families, it also 
validates their service to their country and recognizes their 
sacrifice.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Ms. Vion-Gillespie?

   STATEMENT OF CHRISTINE VION-GILLESPIE, SOCIETY FOR HUMAN 
                      RESOURCE MANAGEMENT

    Ms. Vion-Gillespie. Chairwoman Woolsey, Ranking Member 
Wilson and distinguished members of the subcommittee, my name 
is Christine Vion-Gillespie, and I am the employee relations 
and compliance manager for SAS Institute, Inc., headquartered 
in Cary, North Carolina. I commend the subcommittee for holding 
this hearing on leave for military families, and I appreciate 
the opportunity to share my experiences with you today.
    I am a certified senior human resources professional and 
have over 16 years' experience in human resources management in 
a variety of industries. I appear today on behalf of the 
Society for Human Resource Management, or SHRM, the world's 
largest association devoted to human resource management.
    With the Nation on a heightened military status, SHRM and 
its members stand in full support of the men and women serving 
in America's military, both here and abroad. A considerable 
number of the Nation's reserve components are currently on 
active duty, requiring significant sacrifices not just of those 
called to active duty but of their families and of their 
employers.
    At SAS, for example, we are committed to supporting our 
employees serving in the military as well as their families. We 
continue to compensate our active-duty military employees, 
paying the difference between their SAS salary and their 
military wage for up to 18 months. Active-duty military 
employees and their families also continue to receive health-
care benefits for up to 12 months, and their children are 
welcomed at the SAS-subsidized daycare center indefinitely. SAS 
offers an array of additional support services, as outlined in 
my written statement.
    Because of SAS's commitment to our military employees and 
their families, the North Carolina Employer Support of the 
Guard and Reserve recently presented SAS with the Pro Patria 
Award, the highest State-level award given to a civilian 
employer by the U.S. Department of Defense.
    As you can see from the SAS example, HR professionals and 
their organizations are committed to assisting military 
families in balancing both their work and family demands.
    SHRM applauds the subcommittee's interest in examining ways 
to better support workers whose families have been impacted by 
a call-up. And we stand ready to work with the subcommittee on 
crafting a workable solution that meets the needs of the 
military servicemembers, their employee caregivers and 
employers.
    However, we strongly believe that a comprehensive review of 
the Family and Medical Leave Act is also warranted, given that 
a number of military leave proposals before Congress build upon 
the leave requirements currently afforded to workers under the 
statute and given the fact that employers and employees 
continue to experience challenges with the practical 
application of FMLA in the workplace.
    As you know, there are a number of legislative proposals 
before Congress to provide additional leave to military 
families. I would like to briefly mention SHRM's concerns with 
regard to key provisions of these proposals.
    First, the House adopted an amendment offered by 
Representatives Altmire and Udall during consideration of the 
Department of Defense's authorization bill. That would expand 
the FMLA to provide leave for military families to deal with 
issues related to a call of duty or an impending call.
    Madam Chair, this language is very broad. It sets vague 
standards for leave, and it represents a significant departure 
from the original intent of the FMLA, which was to provide 
employees with family and medical leave. This amendment, 
however, would authorize leave for a variety of purposes 
unrelated to the family or medical leave.
    The Senate also adopted an amendment to the Children's 
Health Insurance Reauthorization Bill that would amend FMLA to 
provide 26 weeks of leave for family members to care for 
injured servicemembers.
    Madam Chair, this legislation is very similar to H.R. 3481, 
the bill you have introduced with Chairman Miller. While this 
approach represents an improvement over the Altmire-Udall 
amendment and is narrowly targeted to address the issues raised 
on the President's Commission on Care for America's Wounded 
Warriors, it, too, raises concerns.
    For example, it is unclear under this proposal whether an 
employee must use the leave within a specified period of time 
after the injury or illness is incurred. In addition, the 
proposal includes a vague standard of leave, especially given 
the administrative challenges employers currently encounter 
with FMLA.
    Clearly, the Nation's men and women in uniform and their 
families have made significant sacrifices for the benefit of 
their country. I know this as the proud daughter of a 30-year 
veteran of the U.S. Navy. SHRM looks forward to working with 
the subcommittee on effective leave policies to support our 
military families.
    Thank you for the opportunity for us to be here today.
    [The statement of Ms. Vion-Gillespie follows:]

Prepared Statement of Christine Vion-Gillespie, SPHR Employee Relations 
  and Compliance Manager, on Behalf of the Society for Human Resource 
                               Management

    Chairwoman Woolsey, Ranking Member Wilson, distinguished members of 
the Subcommittee, my name is Christine Vion-Gillespie and I am the 
Employee Relations and Compliance Manager for the SAS Institute, Inc. 
headquartered in Cary, North Carolina. I commend the subcommittee for 
holding this hearing on the Family and Medical Leave Act (FMLA) and 
leave for military families. I appreciate the opportunity to share my 
experiences with you today.
    I am a certified senior professional in human resources and have 
over 16 years experience in human resource management in a variety of 
industries including hospitality, healthcare, media, and high tech 
software. In my current role, I manage the affirmative action program 
at SAS, develop policies and programs to enhance the strategic 
partnership between HR and the business units, and provide counseling 
to all levels of the HR department with regards to employee relations.
    I appear today on behalf of the Society for Human Resource 
Management (SHRM). SHRM is the world's largest professional association 
devoted to human resource management. Our mission is to serve the needs 
of HR professionals by providing the most current and comprehensive 
resources, and to advance the profession by promoting HR's essential, 
strategic role. Founded in 1948, SHRM represents more than 225,000 
individual members in over 125 countries, and has a network of more 
than 575 affiliated chapters in the United States, as well as offices 
in China and India.
    SHRM is well positioned to provide insight on workplace leave 
policies for military personnel and their families. The Society's 
membership comprises HR professionals who are responsible for 
administering their employers' benefit policies, including paid time-
off programs as entitled to FMLA, track an employee's FMLA leave, and 
determine how to maintain a satisfied and productive workforce during 
the employee's FMLA leave-related absences.
Employer Support
    With the nation on a heightened military status, SHRM and its 
members stand in full support of the men and women serving in America's 
military both here and abroad. According to the Employer Support of the 
Guard and Reserve (ESGR), the men and women of the National Guard and 
Reserve comprise approximately 46 percent of the total available 
military manpower, a significant number of which are currently 
deployed. In addition, the military deployments of the Guard and 
Reserve are lasting longer, requiring additional sacrifices not just of 
those called to active duty, but of their families as well. At the same 
time, employers can be significantly affected when an employee is 
called to active duty or when a member of an employee's immediate 
family has been deployed. In these situations, HR professionals and 
their organizations work diligently to support employees and their 
families affected by these military call-ups. HR professionals must 
also ensure that their workplaces respond appropriately to shifts in 
personnel that are created when employees are called to active duty.
    In my experience, employers believe it is important to assist 
employees in balancing work and personal needs and this includes 
employees who may be called to active duty. At SAS, we have created a 
culture of support for our employees who are in the armed services that 
extends to their families too.
    One important way employers have assisted families of active duty 
Guard and Reserve is through compensation or pay differential. In a 
SHRM Weekly Online Survey conducted in April 2007, 45 percent of the 
randomly selected HR professionals who responded said their 
organizations employee's time on active duty; 6 percent said they do so 
for the entire period of activation; and 35 percent said they provide 
no direct compensation support to employees called to active duty.
    In 2004, SAS revised its military service policy to increase the 
amount of time we would continue to compensate an active duty employee 
on military leave from 12 to 18 months. Now, employees on military 
leave receive the difference, if any, between their SAS salary and 
their military wage for up to 18 months. Employees on military leave 
also continue to receive health care benefits for 12 months. Because 
child care can be especially challenging for families when a spouse is 
activated, SAS allows children of employees enrolled in our Child Care 
Center to remain at the Center for the duration of the military leave. 
In addition, SAS has five social workers on staff to offer a variety of 
support services to employees including assistance with relocation; 
finding a tutor for their children; marriage and family relationship 
issues; financial services; eldercare and in-home resources; and grief 
counseling.
    As a result of SAS's commitment to our military employees and their 
families, the North Carolina Employer Support of the Guard and Reserve 
committee recently presented SAS with the Pro Patria Award, the highest 
state-level award given to a civilian employer by the U.S. Department 
of Defense.
Need Comprehensive Review of FMLA
    As noted earlier, HR professionals and their organizations are 
committed to assisting their employees in balancing both their work and 
family demands. Employees called to active duty, along with their 
families, undoubtedly face difficult times and unique challenges. SHRM 
applauds the Subcommittee's interest in examining ways to better 
support workers whose families have been impacted by a call-up. 
However, we strongly believe that a comprehensive review of the FMLA is 
leave requirements currently afforded to workers under this Act, and 
the fact that employers and employees continue to experience challenges 
with the practical application of FMLA in the workplace. Adding an 
additional leave requirement to the FMLA, regardless of how meritorious 
it may be, will only exacerbate the frustrations HR professionals have 
experienced in implementing this law.
    As you know, the U.S. Department of Labor (DOL) recently completed 
a thorough review of the effectiveness of the FMLA regulations in which 
the Department received over 15,000 comments from employers, employees 
and other interested organizations. In June, the DOL issued a report 
summarizing the comments received through this process. The report 
noted that in many instances, when it comes to the ``family'' portion 
of FMLA, the regulations are basically working as Congress intended 
with few concerns for employers or employees. However, the report also 
highlighted that in other areas, particularly in the ``medical'' leave 
portions of the regulations, differing opinion letters, federal court 
rules and regulator guidance have clouded and sometimes undermined key 
provisions of the FMLA. While SHRM appreciates the Labor Department's 
efforts to initiate a dialog on the FMLA regulations, we believe the 
agency should take the next logical step and issue new rules as soon as 
possible to comprehensively address the issues raised in the review 
process.
    As mentioned above, there are certain provisions within the FMLA 
regulations that work well for both employers and employees. The family 
leave portion of the regulations--which provides up to 12 weeks of 
unpaid leave for the birth or adoption of a child--has caused 
relatively few problems in the workplace. For example, in the 2007 SHRM 
Survey FMLA and Its Impact on for the birth or adoption of a child.
    Key aspects of the regulations governing the medical leave 
provisions, however, as also discussed above, have drifted far from the 
original intent of the Act, creating challenges for both employers and 
employees. In fact, 47 percent of members responding to the 2007 SHRM 
FMLA Survey reported that they have experienced challenges in granting 
leave for an employee's serious health condition as a result of an 
episodic condition (ongoing injuries, ongoing illnesses, and/or non-
life threatening conditions). HR professionals have struggled to 
interpret various provisions of the FMLA, including the definition of a 
serious health condition, intermittent leave, and medical 
certifications.
    HR professionals have two primary concerns with the Act's 
regulations: the definitions of ``serious health condition'' and 
``intermittent leave.'' For example, with regard to the definition of 
serious health condition, the DOL issued a statement in April 2005 
advising that conditions such as the common cold, the flu, and non-
migraine headaches are not serious health conditions. The following 
year, however, the DOL issued a statement saying that each of these 
conditions could be considered a ``serious health condition.'' Almost 
anything, after three days and a doctor's visit, now qualifies as a 
serious medical condition (due to DOL regulations and opinion letters).
    In addition, HR professionals encounter numerous challenges in 
administering unscheduled, intermittent leave. It is often difficult to 
track an employee's unscheduled, intermittent leave usage, particularly 
when the employee takes FMLA leave in small increments. Unscheduled, 
intermittent leave also poses significant staffing problems for 
employers. When an employee takes unscheduled, intermittent leave with 
little or no advance notice, organizations must cover the absent 
employee's workload by reallocating the work to other employees. For 
example, during an employee's FMLA leave, their location attends to the 
employee's workload by assigning work temporarily to other employees. 
In most cases, it is not cost-effective to use temporary staff because 
the period to train a temporary employee is sometimes longer than the 
leave itself. Furthermore, employers typically do not receive 
sufficient advance notice regarding an employee's need for FMLA leave, 
thereby making it difficult to obtain temporary help on short notice.
    In addition to staffing problems, ``intermittent leave'' (as 
defined in the FMLA regulations) has resulted in numerous issues 
related to the management of absenteeism in the workplace. The most 
common challenge HR professionals encounter in administering medical 
leave, for example, is where an employee is certified for a chronic 
condition and the health care professional has indicated on the FMLA 
certification form that intermittent leave is needed for the employee 
to seek treatments for the condition. This certification in effect 
grants an employee open-ended leave, allowing leave to be taken in 
unpredictable, unscheduled, small increments of time. While serious 
health conditions may well require leave to be taken on an intermittent 
basis, limited tools are available to employers in order to determine 
when the leave is in fact legitimate. As a result, 39 percent of HR 
professionals responding to the 2007 SHRM FMLA Survey Report indicated 
that they granted FMLA leave for requests that they perceived to be 
illegitimate.
    SHRM supports the goals of the FMLA and wants to ensure that 
employees continue to receive the benefits and job security afforded by 
the Act. While we fully appreciate the immediacy of the issues being 
faced by our Guard and Reserve families and employees called to active 
duty, we respectfully suggest that if Congress considers proposals to 
expand FMLA leave coverage for military families, it should also take 
steps to address the underlying problems both employers and employees 
encounter with the FMLA.
    SHRM shares Congress' interest in providing military families 
additional work flexibility and looks forward to collaborating with the 
Subcommittee on crafting a workable solution that meets the needs of 
military service members, their employee caregivers, and employers. 
However, as outlined above, there is already a lengthy record of 
problems with administering leave under the FMLA due to confusing and 
inconsistent regulations. SHRM respectfully requests that Congress fix 
the documented shortfalls of the FMLA before considering additional 
leave benefits under this important workplace statute. In addition, we 
would note that the Society has fundamental concerns with a number of 
key provisions of the legislative proposals that have been introduced 
in the 110th Congress. These concerns are outlined below.
Proposal to provide leave for an exigency arising from a call-up
    As you know, earlier this year the House passed H.R. 1585, the 
Fiscal Year 2008 Department of Defense Authorization bill, which 
included an amendment offered by Representatives Altmire (D-PA) and 
Udall (D-NM) that would expand the FMLA to provide leave for military 
families to deal with exigencies arising from a call to duty or an 
impending call to duty. This amendment is very broad, sets vague 
standards for leave, and does not adequately address many issues key to 
effective implementation, which under FMLA have led to excessive 
litigation. For example, in the case of a spouse called to active duty, 
the amendment would appear to authorize leave for a wide range of 
purposes from providing or arranging child care to coaching a child's 
baseball team, to even taking on the spouse's household chores, such as 
maintaining the yard. In addition, if enacted, this amendment would 
represent a significant departure from the original intent of the FMLA, 
which was intended to provide leave for employees to bond with a 
condition.
    Furthermore, as noted previously, the most significant challenge 
with the current FMLA rules is in the area of intermittent leave. Since 
the Altmire/Udall amendment would allow leave to be taken on an 
intermittent basis for reasons outside the original intent of Act, SHRM 
and its members are extremely concerned that this proposal would only 
exacerbate the current problems with FMLA leave use and administration. 
Proposals to provide 26 weeks of leave for caregivers
    In addition to the Altmire/Udall amendment discussed above, 
Chairwoman Woolsey (DCA) and Representative Darrell Issa (R-CA) have 
introduced H.R. 3481, the Support for Injured Servicemembers Act and 
H.R. 3391, the Military Family and Medical Leave Act, respectively. 
Both of these bills would provide up to 26 weeks of leave for FMLA-
covered employees to care for relatives injured while on active duty. 
These proposals seek to implement the President's Commission on Care 
for America's Wounded Warriors' recommendation to expand FMLA leave for 
up to 6 months for a spouse or parent to care for an injured service 
member. On a similar note, an amendment offered by Senator Dodd (D-CT) 
and cosponsored by Senator Clinton (D-NY) to provide caregivers of 
injured service members 26 workweeks of FMLA leave was adopted during 
Senate consideration of H.R. 976, the Children's Health Insurance 
Program Reauthorization Act.
    While these proposals represent an improvement over the Altmire/
Udall approach, SHRM is concerned with the practical application of 
these proposals in the workplace. For example, under several of these 
proposals, it is unclear when an employee must take leave. Does the 
benefit need to be used within a specific period of time after the 
injury or illness is incurred? As members of the Subcommittee know, 
many service-connected illnesses, such as Post Traumatic Stress 
service. Therefore, SHRM recommends that any proposal to expand leave 
benefits to caregivers of service members should include a finite time 
period connected to the military service. If in fact a service member 
would have an impairment that qualified as a serious health condition 
down the road, in all likelihood, both the service member and a 
caregiver would be eligible for FMLA leave at that time. Finally, 
because the proposals outlined above include a vague standard for 
leave, SHRM again has concerns that this type of language would only 
add to the well-documented problems in complying with certain FMLA 
provisions.
Proposals to provide 52 weeks of leave for caregivers
    Additional legislation to provide leave for caregivers of injured 
service members has also been introduced by Senator Barack Obama (D-
IL). S. 1885, the Military Family Job Protection Act, would entitle 
FMLA-eligible relatives, including siblings, to 52 work weeks of job-
protected leave to care for recovering service members. This proposal 
was also adopted in the Senate as an amendment to H.R. 976, the 
Children's Health Insurance Program Reauthorization Act.
    Under the FMLA, an employee must have worked for an employer for 
1,250 hours in order to be eligible for leave. However, there is no 
minimum number of hours an employee must work before taking leave under 
the Obama proposal. In addition, there is no length of service 
requirement in the Obama legislation, which presumably means that an 
employee would be eligible for the leave on their first day. Moreover, 
it is unclear whether this proposal would allow employees to take leave 
on an intermittent basis or what caregivers would be covered under this 
legislation. These shortcomings raise serious concerns for HR 
professionals.
Conclusion
    Clearly, the nation's men and women in uniform and their families 
have made significant sacrifices for the benefit of our country. SHRM 
appreciates the opportunity to provide testimony on proposals to 
provide additional leave for our nation's military families. While the 
goal of extending the FMLA to cover military families is laudable, SHRM 
would encourage policy makers to proceed with caution in advancing 
these types of proposals in order to limit any unintended consequences 
for employees, caregivers, and employers. The Society looks forward to 
working with the Subcommittee on workable leave policies to support 
caregivers of injured military service men and women.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Ms. Ness?

STATEMENT OF DEBRA L. NESS, PRESIDENT, NATIONAL PARTNERSHIP FOR 
                       WOMEN AND FAMILIES

    Ms. Ness. Good afternoon, Chairwoman Woolsey, 
Representative Wilson, Representative Bishop and my fellow 
panel members. Thank you for the chance to talk about a law 
that is so vital to America's working families, the Family and 
Medical Leave Act, and how we can make it available to military 
families when they need it most. I am Debra Ness, president of 
the National Partnership for Women and Families.
    One of our proudest accomplishments is the Family and 
Medical Leave Act. We wrote the initial draft of the bill, 
fought for 9 years to enact it, and we remain its stewards 
today. The FMLA is the only Federal law that helps our Nation's 
workers meet the dual demands of work and family. It provides 
unpaid, job-protected leave for up to 12 weeks a year to care 
for a newborn, a newly adopted or foster child, to care for a 
seriously ill family member or to recover from one's own 
serious illness. It protects your job and your health 
insurance.
    Since it was passed in 1993, more than 60 million workers 
have used the FMLA in times of need to care for themselves or 
family members without putting their jobs on the line.
    The FMLA is, without a doubt, one of our country's most 
popular laws. More than 80 percent of employees surveyed by the 
Department of Labor say that all workers should be able to take 
up to 12 weeks of leave a year for family and medical reasons. 
Support for the FMLA crosses all demographic lines; it works 
equally well in red States and blue States.
    The FMLA has also been good for employers. National 
research conducted by the Department of Labor indicates that 
the vast majority of employers say complying with the FMLA has 
a positive or a neutral effect on productivity, profitability, 
growth and morale. The law benefits employers by helping them 
retain trained employees, by keeping productive workers on the 
job and creating a positive work environment.
    It does have its limitations, however. It covers only about 
60 percent of our Nation's workforce, and the leave it provides 
is unpaid. So, as a result, unfortunately, there are millions 
of workers in this country who are not yet covered by the FMLA 
and who cannot afford to use the benefits that it provides.
    We know it works. We know that millions of more workers 
urgently need its protections. Yet, in the 14 years since it 
became law, the FMLA has never been expanded. We hope that is 
about to change. With our Nation at war and with so many 
servicemembers suffering grievous injuries, we need to expand 
the FMLA so that military families can care for their loved 
ones without fear of losing their jobs or their health 
insurance.
    The President's Commission on Care for America's Returning 
Wounded Warriors recognized the importance of this law this 
summer when it made FMLA expansion one of its six broad 
recommendations. The Commission asked Congress to expand the 
FMLA to allow up to 6 months for family members caring for 
seriously ill soldiers. We could not agree more.
    The Commission reports that more than 3,000 servicemembers 
have been seriously injured during operations in Iraq and in 
Afghanistan. Many return home, as we have heard here today, 
with traumatic brain injuries, amputations and other serious 
conditions that require extensive, long-term medical care and 
rehabilitation.
    Many of these wounded veterans rely on the care of a family 
member for their recovery. That care is truly essential to 
their recovery. In fact, almost a third of wounded 
servicemembers report that a family member or a close friend 
had to relocate for an extended period of time to be with them 
while they were recovering in the hospital. About one in five 
servicemembers report that their family members had to give up 
their jobs to care for them.
    How tragic it is that in addition to the enormous 
sacrifices these soldiers and families have already made, these 
families also face a loss of income and health coverage. To 
care for their wounded spouse, son, daughter, sister or 
brother, they must jeopardize their family's stability and 
economic security. Expanding the FMLA would mean that fewer 
families would have to face that kind of trauma.
    That is why we are so pleased that both houses of Congress 
are moving quickly to implement this Commission recommendation. 
Last month, the Senate unanimously enacted the Support for 
Injured Servicemembers Act, which amends the FMLA to provide up 
to 6 months of job-protected leave for a family member/next of 
kin who is providing care to a wounded servicemember. The House 
should do the same with all due haste.
    Thank you, Chairwoman Woolsey, for introducing this 
companion bill. Thanks, also, to Representatives Miller, 
Filner, Berkley, McCarthy and Skelton for co-sponsoring it.
    We heartily endorse this legislation. We urge you to enact 
it quickly so that military families can immediately begin 
taking advantage of the extended leave it provides. It is a 
modest but critically important step.
    Thank you.
    [The statement of Ms. Ness follows:]

 Prepared Statement of Debra Ness, President, the National Partnership 
                          for Women & Families

    Good afternoon Chairwoman Woolsey, members of the subcommittee, and 
my distinguished fellow panel members. Thank you for inviting us to 
talk about a law that is vital to America's working families--the 
federal Family and Medical Leave Act--and how we can make sure that it 
is available to support our military families when they need it most.
    I am Debra Ness, President of the National Partnership for Women & 
Families, a non-profit, nonpartisan advocacy organization with more 
than 35 years of experience promoting fairness in the workplace, access 
to quality health care, and policies that help women and men meet the 
competing demands of work and family.
    One of the accomplishments we are most proud of is our work on the 
Family and Medical Leave Act. We wrote the initial draft of the bill; 
built a broad-based, strong coalition of more than 250 national and 
local organizations to support it; and pushed for nine years until it 
was enacted. We were fortunate to have Senator Dodd as our champion in 
the Senate, and to have many champions in the House of Representatives 
as well. And of course it was President Clinton who finally signed the 
FMLA into law after it was vetoed twice by the first President Bush.
    We are still the stewards of the FMLA, working to make its 
protections available to all workers who need it. The FMLA is the only 
federal law that helps our nation's workers meet the dual demands of 
work and family. It provides unpaid, job-protected leave for up to 12 
weeks a year to care for a newborn, newly adopted or foster child, to 
care for a seriously ill family member, or to recover from an 
employee's own serious illness. It also protects the health insurance 
of those on leave.
    Since it was enacted in 1993, the FMLA has given more than 60 
million workers the opportunity to care for themselves and their family 
members in times of need--without putting their jobs on the line.
    The FMLA is one of the most popular laws in the country. More than 
80 percent of employees surveyed by the Department of Labor say that 
all workers should be able to take up to 12 weeks of leave a year for 
family and medical reasons--a finding duplicated in poll after poll. It 
has high support across all demographic, political, and regional 
groups.
    The FMLA has also been accepted and welcomed by employers. Data 
from the most recent national research on the FMLA, conducted by the 
Department of Labor, show that the vast majority of U.S. employers 
report that complying with the FMLA has a positive/neutral effect on 
productivity (83 percent), profitability (90 percent), growth (90 
percent), and employee morale (90 percent). The Act benefits employers 
in numerous ways, most notably the savings derived from retaining 
trained employees, from keeping productive workers on the job, and from 
a positive work environment.
    The Department of Labor recently published a summary of comments 
submitted by employees and employers that are a testament to the 
important role the FMLA plays in our nation's efforts to maintain a 
healthy, productive workforce. Many of the comments are available on 
the Department's website, and I want to share just a few of them with 
you today:
    Comments from workers:
    <bullet> ``Without [the FMLA], I couldn't have cared for both of my 
parents at different times in their lives and kept my job. * * * 
Because of the act I was able to keep my parents out of nursing homes 
and still keep my job to support them later. This is the best thing you 
can do for working families around our country.''
    <bullet> ``FMLA not only allows me to take time off for * * * 
therapy/medical appointments but also allows [me] to take time off as 
needed when I have sporadic episodes in which the medicine does not 
work, needs to be fined tuned, or changed which is essential to my 
well-being. * * * FMLA saved my job and I also believe saved my life, 
and to this day gives me a sense of security against any discipline or 
termination based on my legitimate medical needs.''
    <bullet> ``I used FMLA three times in the last 9 years (with and 
without pay); each time I was very grateful to know that my job status 
was protected when I was out on leave. All three times I returned to 
work and rededicated myself to my job. FMLA helped me, my family, and 
my loyalty and productivity in the workplace.''
    And from employers:
    <bullet> ``If I have an employee with a child or family member with 
a serious illness, and this employee is unable to be with that family 
member when needed, they are distracted at work and their productivity 
suffers. In contrast, if they are allowed time to care for that family 
member, their productivity increases. They know what they have to 
accomplish and--sometimes by working at home, or working extra hours, 
or skipping lunch, or working exceptionally hard--they get it done. And 
in the end I have an extremely loyal employee.''
    <bullet> [Administering FMLA leave is] no more difficult to 
navigate than any other labor oriented legislation. In fact I find it 
very straight forward and it has been a literal lifesaver for some of 
our people. * * * In the long run, most people will appreciate the 
extra protection offered by the employer during a difficult time and 
will return as more motivated employees once the crisis has passed.''
    The FMLA has been a tremendous benefit to working families--but it 
has limitations and does not cover all of our nation's workforce. For 
example, the FMLA covers only 60 percent of the workforce because it 
covers only employers with 50 or more employees. The decision in 1993 
to leave unprotected those working for employers with fewer than 50 
employees was due in large part to claims made by some stakeholders 
that the law would harm employers and the economy. We now have nearly 
15 years of experience with the law, and these concerns have been 
proven false.
    Further, the FMLA provides only unpaid leave. This means that for 
the vast majority of low-wage workers who have no paid leave benefits, 
the FMLA remains an empty promise. Seventy-eight percent of those who 
need but do not take family and medical leave do not take it because 
they can not afford to, according to the Department of Labor. And 
300,000 personal bankruptcies a year are caused by lack of paid medical 
leave, according to research by Harvard Professor Elizabeth Warren.
    We are grateful to the Congressional leaders who have introduced 
bills to expand the FMLA, so more workers can benefit from its 
essential protections. We applaud Chairwoman Woolsey for introducing 
The Balancing Act, a comprehensive measure that would expand the FMLA, 
facilitate the creation of state paid family and medical leave 
programs, and provide other badly needed supports to working families. 
And we thank Senators Dodd and Stevens for introducing legislation that 
would create a national paid family and medical leave insurance 
program.
    With our nation at war, and so many of our servicemembers coming 
home and needing care while they recover from very serious injuries, we 
need to ensure that the protections of the FMLA are adequate to serve 
the needs of our military families.
    The President's Commission on Care for America's Returning Wounded 
Warriors issued its report this past summer, and one of its six broad 
recommendations was that Congress should change the Family and Medical 
Leave Act to allow up to six months leave for spouses and parents of 
seriously injured soldiers.
    We could not agree more. According to the Commission, more than 
3,000 servicemembers have been seriously injured during operations in 
Iraq and Afghanistan. Many return from these conflicts with serious 
injuries, including traumatic brain injuries and amputations, both of 
which require extensive medical care and rehabilitation. And recovering 
in the care of a loved one is the best option for a significant number 
of these wounded veterans.
    Some already have that support. Thirty-three percent of active 
duty, 22 percent of reserve component, and 37 percent of retired or 
separated servicemembers reported that a family member or close friend 
relocated for extended periods of time to be with them while they were 
recovering in the hospital. Additionally, 21 percent of active duty, 15 
percent of reserve component and 24 percent of retired or separated 
servicemembers reported that family members or friends gave up a job to 
be with them or to act as their caregivers.
    They shouldn't have to. We are grateful that leaders in both houses 
of Congress are moving quickly to implement this Commission 
recommendation. Last month, the Senate unanimously enacted The Support 
for Injured Servicemembers Act, which amends the FMLA to provide up to 
six months of job-protected leave for a family member (spouse, son, 
daughter, parent, or next of kin) who is otherwise eligible for the 
FMLA and who is providing care for a servicemember recovering from a 
combat-related injury or illness.
    This is the first time that an FMLA expansion has been adopted by 
either house of Congress since the law was enacted in 1993. The measure 
was enacted as an amendment to the legislation reauthorizing the 
Children's Health Insurance Program, and was sponsored by Senators Dodd 
and Clinton, and co-sponsored by Senators Dole, Graham, Mikulski, 
Chambliss, Brown, Cardin, Menendez, Salazar, Kennedy, Reed, Boxer, 
Murray, Lieberman and Roberts. Earlier this month Chairwoman Woolsey 
introduced the companion measure in the House, which has five 
cosponsors (Representatives Miller, Filner, Berkley, McCarthy, and 
Skelton), and which is the subject of this hearing today.
    We heartily endorse this legislation and urge you to enact it 
quickly, so that military families can immediately begin taking 
advantage of the extended leave that it provides. It is a modest and 
critically important step forward in improving health care for our 
veterans and providing better support for our military families.
    The President's Commission report could not have been more clear--
today's veterans and their families need access to extended FMLA leave. 
We ask our military families to make great sacrifices. Now we have an 
opportunity to show them how much we appreciate all that they have done 
by giving them time off from work to provide care for their loved ones 
through The Support for Injured Servicemembers Act.
    Thank you for the opportunity to speak here today. I am happy to 
answer any questions you might have.
                                 ______
                                 
    Chairwoman Woolsey. Well, I want to thank all four of you. 
You have been wonderful.
    First of all, I yield myself 5 minutes to make some remarks 
but mostly to ask questions.
    I echo--that we need to do this in the Congress. Rather 
than repeat everything you say, Ms. Ness, I am going to say I 
echo your rationale about the FMLA. And I keep hearing the 
unpaid piece of it, and that it only covers 60 percent of the 
workforce.
    So, along with introducing H.R. 3481, I want to assure you 
that we are working on expanding the Family and Medical Leave 
Act. I have legislation called the Balancing Act. It is H.R. 
2392. We have 50-some cosponsors already. And it does bring 
down the eligibility to companies that are below 50 now--and we 
have not quite picked the cutoff point, but it will be about 15 
or 20 at the most.
    And it does include paid family leave, modeled after 
California. But we could even do more in this country. We are 
the wealthiest nation in the world, and we take the least 
amount of care of our families, their children and our seniors 
through our medical and our leave policies. Shame on us.
    Ms. Vion-Gillespie, I was a human resources professional 
for 20 years; I know what your job is all about. I also know 
that, when there is a will, there is a way. And in times like 
this, we can not wait to redo the Family and Medical Leave Act 
and make it all-inclusive and fix it totally. We have to do 
something for our military personnel, our veterans and for 
their families, and we need to do it now.
    So I wanted to know from you: What would you think of 
waiving the 12-month period? I mean, it is virtually impossible 
for a family that is following their spouse around the country 
to be in a job for 12 months.
    Ms. Vion-Gillespie. I think that is a great question.
    I know that expanding leave benefits for military families 
is desirable. It is feasible. It is a great goal. If current 
laws are amended to balance the needs of employers and 
employees, we can reach that goal.
    At the same time, we have an obligation to provide all 
employees and employers with clear, predictable and practical 
leave requirements. Certainly, looking at that 12-month waiting 
period and having been a child of the military, I certainly 
understand where it is difficult to maintain those levels of 
employment.
    As part of that partnership, I think that is where the give 
and take is and that maybe there is an opportunity to be able 
to do that in order to help clarify another piece of that 
legislation. You all do that very well in being bipartisan, and 
I know that we could do as well.
    Chairwoman Woolsey. Well, I thank you for that.
    Part of it is leveling the playing field. You know, there 
are really good employers in this country of ours who do take 
care of their servicemembers and their employees. Look at Ms. 
Wade's father-in-law. And you are right, he had earned that 
loyalty, but not all employers would provide that. But if all 
employers are expected, then the playing field is leveled. And 
so the employer who gives the most does not end up having less 
profit, because everybody is expected to live up to who we are 
as Americans.
    With that, Ms. Wade, you talked about having a lot going on 
in your life and having that be a label, like that was 
something very negative.
    First of all, I am in awe of you and your hero husband; you 
are both my heroes.
    In the law that we are talking about, what could make it 
even better?
    Ms. Wade. I think that one of the--a couple of people 
touched on this, that it does not cover everybody. I know that 
my husband had a soldier who was in his squad--my husband was a 
team leader--who grew up in a boys' home in Tennessee. In a 
situation like his, it was a former foster parent who would 
have taken that role, and I think that--I mean, one of the 
things that might be good to look at is that, after your 
invitational travel orders expire that you initially get as a 
family member with the military, then a doctor can authorize 
what they call ``nonmedical attendant orders'' for somebody to 
stay for a longer period of time. I believe the ITOs are 120 
days, if I remember correctly, but then you become the 
nonmedical attendant.
    And I think it should apply to whomever is designated as 
that person's nonmedical attendant, because, that way, we would 
not leave anybody out. It would include a brother or a sister 
or it would include whomever is that person who is providing 
the care.
    Chairwoman Woolsey. Okay. Thank you.
    I am going to move to Mr. Wilson in 1 minute. I just want 
to say siblings are covered in our legislation.
    Ms. Wade. Okay. All right.
    Chairwoman Woolsey. You know, it does not just say ``blood 
relatives.'' and if, for some reason, it is not clear that it 
is covered, we will fix that.
    Mr. Wilson?
    Mr. Wilson. Thank you again all for being here. And, Ms. 
Wade, indeed you are an inspiration, and your father-in-law and 
I am sure your mother-in-law working together with you. And I 
know that all of us want to be available, too, in any way as 
you face the multitude of measures.
    Is your husband currently at Walter Reed still, or where is 
he now?
    Ms. Wade. We are actually back at Walter Reed right now.
    Mr. Wilson. Back at Walter Reed?
    Ms. Wade. Yes.
    Mr. Wilson. And is he receiving the assistance with the 
prosthetic devices that you feel sufficient?
    Ms. Wade. He is now, yes. That is why we are back at Walter 
Reed, yes, sir.
    Mr. Wilson. Again, if any of us can be of assistance, you 
really have been an inspiration.
    Ms. Perdew, I certainly appreciate your organization, and 
particularly the definition of eligibility, including those who 
would be considered primary caregiver. And Ms. Wade pointed out 
if you are an orphan, how do you identify? And so I hope 
whatever definition is in here, it covers the primary 
caregiver.
    And on the issue of paid family leave, with the nonmedical 
attendant orders, where I believe persons--and I have worked 
with people, and it is wonderful the devotion that family 
members have at Walter Reed where I visited in Bethesda--they 
are reimbursed and receive a stipend. Is that sufficient? And 
that would be from obviously the government, not from a private 
business. Since I would like to work with you on how we can 
best address that.
    Ms. Perdew. We believe that their basic needs are provided 
for. What we also know is that that particularly a 
servicemember with young children or children at home, they may 
have to relocate the family here if this is a long-term, 
protracted treatment program.
    And we also know that living in the National Capital 
region, we have very limited family resources for our military 
families. This is unlike any other duty station. We have very 
few military child care centers. We have some wonderful medical 
resources, but they are overtaxed. And so what we know is that 
if they come here with the entire family in tow, the cost of 
providing some of the normal care for their children is 
probably not being covered.
    Child care is very expensive in this region, and if you 
have a family member who is hospitalized, and you need to be 
there for those appointments, there has to be some family care 
plan. And we know that they are digging deep into their own 
pockets to cover those expenses.
    Mr. Wilson. Well, I look forward to your suggestions on how 
we can address that.
    Ms. Wade. Sir?
    Mr. Wilson. Yes.
    Ms. Wade. If I may, there is no stipend.
    Mr. Wilson. A reimbursement of some type?
    Ms. Wade. They have a per diem for meals, but there is no 
stipend. And also if you are a retired servicemember or on 
temporary retirement, you do not qualify for that.
    Mr. Wilson. Well, again, however we can help on that, 
please keep me informed, because in my visits to see the 
caregivers, that is--they are world class working with young 
people.
    Ms. Vion-Gillespie, can you tell us today does SHRM support 
expanding the Family and Medical Leave Act to provide extended 
care for military families? And as a follow-up, based on your 
experience with the FMLA in other contexts, are there 
particular challenges in the law that we in Congress should be 
mindful of as we choose to expand it?
    Ms. Vion-Gillespie. If it is all right with you, I will 
answer the second one first, because it will lead into the 
second one. There are challenges now. What we found is there 
are some great things with FMLA. I think we have got it down to 
a science now when we deal with a lot of family issues. I think 
we have it down to a science when we deal with prolonged 
illnesses and individuals have to be out.
    Where the challenge comes in that chronic condition, the 
condition where we don't know when they are going to be out. It 
is one thing if I am going in and I know I have dialysis, 
because chances are I am not going to call up the employer and 
say, hey, I have dialysis at 8:00, I just found out. Typically 
in those cases it is foreseen. The employee works really well 
with the employer. They set up a time, they know when that is, 
and they can provide for coverage so that the work is done.
    Where the challenges we have with administering it is truly 
with chronic intermittent. We have 5,000 employees in the U.S. 
On average every month we have 150 requests for leave, FMLA. 
Eighty of them are intermittent where we are not going to know 
if and when the employee is going to be able to come to work 
today. That is a huge challenge for us at this point in time.
    Do I think in terms of looking at it being expanded 
especially for the military? There is no cause nearer and 
dearer to my heart than is certainly the military. Our thing is 
it is desirable, it is feasible. But, by gosh, we really need 
to balance those needs of employers and employees, and we need 
to spend some time in trying to maybe fix where some of those 
challenges are. I always think of it as a pyramid. You have the 
base, and you have to have a really, really strong base, 
because if you keep adding layers on there, your layers are 
only as strong as that initial base.
    Mr. Wilson. Thank you very much.
    Chairwoman Woolsey. Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chairwoman, and thank you to 
the panel, all of you, for your testimony.
    Ms. Vion-Gillespie, is it fair for me to summarize your at 
least written testimony that your organization believes that 
expanding FMLA coverage for up to 6 months for caregivers of 
military personnel is something that you support, but only 
within the context of a broader reform or review of FMLA in 
general? Is that a fair characterization of your testimony?
    Ms. Vion-Gillespie. It is such a complex issue to sum up. 
Yes, in the sense that we want to have that good foundation in 
order to put it on there; but, yes, we understand, and we see 
where the need is as well.
    Mr. Bishop. Let me read from your testimony. You said, 
given the fact that employers and employees continue to 
experience challenges with the practical application of FMLA in 
the workplace, adding an additional leave requirement to the 
FMLA, regardless of how meritorious it may be, will only 
exacerbate the frustrations human resource professionals have 
in implementing this law.
    When I read that paragraph I concluded from that that you 
believe that the specific case is meritorious, but that it 
would create larger problems that require being addressed. And 
I am not trying to put words in your mouth. I guess that is the 
subject on which I wish to engage you.
    The President has described the war as the central front in 
the war on terror. He has also described it as the defining 
struggle of our time. We have 165,000 of our troops fighting in 
Iraq and another 25- or 30- in Afghanistan. They are conducting 
the work of this defining struggle for the rest of the 300 
million of us.
    Shouldn't this be a no-brainer? I mean, shouldn't we just 
say that if this is what the families of those who have waged 
this struggle on our behalf need, shouldn't we just find ways 
to make this work without subjecting it to some broader review 
of a piece of legislation that may well need the review, but is 
going to take time, and the struggle is going on right now? I 
mean, shouldn't we just get this done and then at some future 
point deal with some of the larger issues that HR professionals 
and employers have to contend with?
    Ms. Vion-Gillespie. I guess I would see it as not being 
mutually exclusive. In addition to looking at the military 
families and looking at those caregivers, and you are 
absolutely right, they are out there fighting so that we can be 
free, and we can be able to express our ideas here, absolutely, 
but we also have to look at what that does to the employees 
left behind as well. We have a lot of employees in the 
workforce that that is a challenge for them, too.
    What we are saying is we don't have to do one at the 
exclusion of the other. We can actually go ahead, put it 
together and have it working, and have it working even 
stronger, and maybe avoid some of those challenges and 
frustrations that we faced very early on with FMLA.
    Mr. Bishop. I guess I would just say as a practical matter, 
you are right, they are not mutually exclusive. But this is 
something that I think would attract broad bipartisan support. 
We could get this done relatively quickly. In terms of 
Washington time, nothing moves quickly, but a broader 
assessment of FMLA would take a long, long time. And so I guess 
my belief is that we should just get this done, and then at 
some future time, if there are issues to look at, we can look 
at them.
    I guess the other thing I would say, before I came to the 
Congress, I ran a college. We had 250 employees, we had 1,200 
students, and it was a small town. I mean, they lived on 
campus. We had to feed them; we had to provide security and so 
on. We had FMLA coverage, obviously, and we even went beyond 
it. We went beyond it for maternity leave and so on.
    Employers have lots of tools at their disposal to 
accommodate temporary absences in the workplace, even if they 
are not known beforehand. And so it seems to me that given the 
sacrifices we are asking people to make, to ask employers to 
sacrifice in terms of coming up with some ingenuity and some 
creative ways to cover temporary absences, that is very modest 
in comparison to what we have asked the Wade family to deal 
with. So I would hope we can find a way to do this and to do it 
very, very quickly.
    And with that, I yield back. Thank you, Madam Chair.
    Chairwoman Woolsey. Thank you, Mr. Bishop.
    Mr. Payne.
    Mr. Payne. Thank you very much, Chairwoman, and I really 
commend you for calling this very important subject to light. 
And unfortunately I was unable to get here in time to hear the 
witnesses; however, I certainly have a feeling for what the 
problems are.
    I was in Congress when we passed the Family and Medical 
Leave Act in general, and we had a difficult time just trying 
to get that through. There was a lot of opposition to it. The 
act really, compared to European countries, doesn't even come 
close to medical family medical leave in Europe, especially 
Germany and Scandinavian countries where it is paid leave and 
both parents can take time off. Actually, men can take off 
during maternity. It is just really family friendly. And that 
is one of the things that I do notice here in the greatest 
Nation in the world: We tend not to necessarily be so family 
friendly.
    So I just wonder, you know, when we gauge quality of life 
here as really being superior to anyplace in the world 
supposedly, however we have to battle for anything that is 
progressive.
    And since I was unable to hear the testimony, I won't ask 
any questions, but I simply would like to say that you 
certainly have my support in trying to move this legislation 
forward. And we will work hard to try to see that we extend 
coverage to military families, but hopefully we can just get a 
saner policy as relates to us getting into war. That would be 
the number one issue. I speak a little Spanish. That would be 
numero uno, if I can say it in Spanish, and number one in 
English. And then many of these problems that we are confronted 
with now would not exist.
    So I would just like to say once again that I support the 
issue and will work closely with the committee and the 
Chairperson to see that we move it through as expeditiously as 
possible. Thank you.
    Chairwoman Woolsey. Thank you.
    I ask unanimous consent that the joint statement of Senator 
Barack Obama and Senator Claire McCaskill be included in the 
record. Without objection.
    [The joint statement of Senators Obama and McCaskill 
follows:]

  Prepared Statement of U.S. Senators Claire McCaskill (Missouri) and 
                        Barack Obama (Illinois)

    Madam Chairman, thank you for providing us with the opportunity to 
present testimony today to the House Workforce Protections 
Subcommittee. We are grateful that the committee has chosen to examine 
the fundamental question of how we can best provide the care and 
support our veterans and military families deserve.
    Since the conflicts in Iraq and Afghanistan began, our service 
members have performed bravely and brilliantly, and they have done 
everything we have asked of them. Our military families have also made 
incredible sacrifices. Waiting and praying, they manage the stress and 
uncertainty of long, repeated deployments. And when their loved ones 
return home, they are there to help them heal from the physical--and 
sometimes less visible--wounds of war.
    Given these sacrifices, and given that three out of every five 
deployed service members have family responsibilities at home, Congress 
must ask if we are truly meeting our commitment to our military 
families. Providing our service members and their families with the 
care and compassion they deserve is the very least we owe these heroes.
    The unacceptable shortcomings in care at Walter Reed highlighted 
the fact that our nation has not always matched words with action when 
it comes to caring for our service members, veterans and their 
families. Anyone who has taken the time to visit Walter Reed, as we 
have, has met spouses who don't view visiting hours as a part-time job. 
Day after day, these family members help their wounded loved ones 
persevere through what is often a lengthy and painful rehabilitation 
process.
    We must show our veterans and military families that we will help 
them with the basics, including access to health care, counseling and 
vocational training--all measures from our Dignity for Wounded Warriors 
Act that the Senate adopted this summer. But we must also focus on 
their job security. When America's sons and daughters are injured 
overseas and they return home to begin their recovery, their families 
should not be forced to choose between caring for a wounded family 
member and keeping their jobs.
    That's why in February we first proposed the idea of extending job 
protections for our military families. Our Military Family Job 
Protection Act (S. 1885) would provide family members with up to one 
year of protected leave to care for a wounded loved one. Our approach 
also calls on the Secretary of Defense to consult with the Labor 
Department and develop a certification process that minimizes the 
administrative burden and helps free our military families from a web 
of red tape and bureaucratic delay.
    Our bill provides 12 months of job protection, which we believe is 
the necessary amount of time to help family members caring for a 
wounded service member. In addition, the protections we propose would 
be provided through channels similar to those utilized to provide job 
protections for reserve component military service members called to 
serve on active duty. In many ways, the family members we are trying to 
assist are similar to military service members being called to active 
duty. Just as we protect activated service members for the duration of 
their combat tour, we must seek to protect family members for the 
duration of their tour of duty caring for their wounded loved ones.
    Our proposal has bipartisan support and has been endorsed by 
Veterans for America. We urge our colleagues in Congress to support 
this common-sense solution and send the Military Family Job Protection 
Act to the president for his signature.
    Madam Chairman, thank you again for inviting us to offer this 
testimony.
                                 ______
                                 
    Chairwoman Woolsey. Would anybody else like to ask any 
further questions?
    Would any of the four of you have anything to say that we 
might not have heard, because we have kept you here a long 
time.
    Ms. Wade?
    Ms. Wade. I think one thing I just want to caution against, 
when I was listening to what Mr. Bishop was saying, is that 
some people like myself ended up working for people that didn't 
have a very big heart. And I know sometimes that there are 
people that don't like to hire military spouses because they 
move a lot, and I don't want to deter or add any more 
deterrence to people wanting to employ military spouses, and so 
I hope you all keep that in mind.
    Chairwoman Woolsey. That is a very good point, but we are 
not going to refer to just military spouses; it could be 
anybody in the workforce that is going to be the caretaker of 
somebody in the military. Actually we will be very careful in 
our language that it doesn't set it up that way.
    Anybody else?
    Ms. Ness.
    Ms. Ness. Just one small point going back to Representative 
Wilson's question about the stipend. The other thing I think we 
need to keep in mind is for folks who are not covered by the 
FMLA, the question of losing their health insurance is also 
very significant, and it is really a tragedy that somebody 
might have to give up their own health coverage in order to 
take care of a loved one.
    Chairwoman Woolsey. Mr. Wilson, the closing remarks.
    Mr. Wilson. I would like to move that members of the 
committee have 14 days in which to submit additional 
information.
    Chairwoman Woolsey. Without objection.
    [The information follows:]

  Prepared Statement of the National Coalition to Protect Family Leave

    Chairwoman Woolsey, Ranking Member Kline, the National Coalition to 
Protect Family Leave appreciates the opportunity to submit testimony to 
the House Subcommittee on Workforce Protections for today's hearing on 
extending Family and Medical Leave Act Coverage to military families. 
We commend you for convening this hearing on such a meaningful issue to 
America's servicemen and women, their families, employers, and the 
nation they serve.
I. Overview
    The National Coalition to Protect Family Leave (``Coalition'' or 
``NCPFL'') is a broad-based, non-partisan group of organizations, 
companies and associations dedicated to protecting the integrity of the 
Family and Medical Leave Act (``FMLA'' or ``the Act'').
    The Coalition supports the spirit and intent of the FMLA. Coalition 
members recognize the challenges employees face in balancing work and 
family demands and their desire to feel secure in their jobs, 
particularly in the event they need to be absent for family or medical 
issues. We also understand the concerns of employers when administering 
the FMLA on a daily basis.
    Most relevant to today's hearing, the Coalition appreciates the 
sacrifices of the thousands of members of the U.S. military who nobly 
serve in countless capacities at home and abroad, and the difficulties 
of simultaneously maintaining civilian employment. Few national 
priorities rise above providing quality care and support to the 
nation's servicemen and women and their families. Today's hearing 
provides an important forum to discuss the challenges facing our 
returning soldiers and their families.
    The Coalition is pleased to submit this statement for the record of 
today's hearing because, as is explained below, the issue of military 
family leave is clearly a priority to the Subcommittee and the 
Congress. Both the House and Senate have recently voted on legislation 
to provide new Federal leave benefits to the families of military 
service members, albeit without the benefit of any prior hearings on 
the issue. Several important aspects of the current FMLA law and 
proposals to expand the Act or create a new statute for military 
families require careful consideration.
II. FMLA Challenges
    The Coalition recognizes the significant contributions the FMLA has 
made to the American workplace. The family leave provisions of the FMLA 
have been particularly successful, and employers have encountered very 
few challenges implementing the leave provisions as they apply to the 
birth or adoption of a child.
    Notwithstanding the successes of the family leave portion of the 
FMLA, employers have experienced challenges with the ``medical leave'' 
provisions of the Act, in particular the use of incremental leave for 
chronic conditions. Day-to-day administration of the Act has confused 
both employers and employees alike. Employers have struggled with 
several issues, particularly what constitutes a ``serious health 
condition'' as well as with the implications of unscheduled 
intermittent leave. The ``intermittent leave'' regulations, coupled 
with the vague ``serious health conditions'' regulations, allow 
employees to characterize chronic, non-serious health conditions as 
FMLA leave.
    In March 2007, the Coalition released a survey conducted by the 
Society for Human Resource Management (SHRM) that found more than half 
(51%) of human resource (HR) professionals have faced ``significant 
challenges'' in implementing the medical leave provisions of the FMLA. 
Furthermore, nearly two-thirds of HR professionals have experienced 
problems in determining when to grant ``chronic leave'' under the 
Family and Medical Leave Act (FMLA), leading to employee morale issues 
and loss of productivity.\1\ The challenges of chronic leave threaten 
the integrity of this important law for those employees who truly have 
serious health conditions. For these reasons, the Coalition has 
actively supported public policies that will strengthen the FMLA to 
ensure its availability to those employees Congress intended to cover.
---------------------------------------------------------------------------
    \1\ Society for Human Resource Management, SHRM Survey Brief: FMLA 
(2007)
---------------------------------------------------------------------------
    Much of the confusion surrounding the medical portion of the FMLA 
has been the inconsistent U.S. Department of Labor (DOL) opinion 
letters that have undermined the original intent of the Act. 
Consequently, the Coalition has repeatedly urged DOL and Congress to 
strengthen the FMLA by clarifying the medical leave interpretations and 
other FMLA administrative complexities which are causing problems in 
the workplace.
    In order to preserve the integrity of the law's leave protections 
for family and medical reasons, the medical leave provisions of the Act 
and the corresponding regulations must be clarified to ensure that the 
Act benefits those employees who need it most. Relevant to the issue of 
today's hearing, the Coalition believes that these issues need to be 
addressed before expansion of the Act or other leave mandates are 
considered. Furthermore, the Coalition believes a piecemeal approach to 
correcting FMLA shortcomings will not provide the needed clarity for 
the workforce.
III. President's Commission on Care for America's Returning Wounded 
        Warriors
    In July 2007, the President's Commission on Care for America's 
Returning Wounded Warriors (``Commission''), chaired by former Senator 
Bob Dole and former Secretary of Health and Human Services Donna 
Shalala, released a report on how to better support and rehabilitate 
members of the U.S. Armed Forces returning from combat operations 
abroad. In order to provide greater support to military families, the 
Commission recommended that Congress should amend the FMLA to provide 
six months' leave for any family member of a service member who 
sustained a combat-related injury and meets the other eligibility 
requirements in the law. The Commission surveyed injured service 
members and found that 33 percent of active duty, 22 percent of reserve 
component, and 37 percent of retired and separated service members 
reported having a family member or close friend who relocated for an 
extended period of time to be with them while they received medical 
care.\2\
---------------------------------------------------------------------------
    \2\ The President's Commission on Care for America's Returning 
Wounded Warriors (2007)
---------------------------------------------------------------------------
IV. Legislation to provide leave to military families
    The Subcommittee is faced with several legislative proposals that 
intend to provide new leave benefits to military families. This section 
examines four of the most prominent pieces of legislation:
            <bullet> Altmire/Udall amendment
    In May 2007, Representatives Jason Altmire and Tom Udall offered an 
amendment to H.R. 1585, the National Defense Authorization Act for 
Fiscal Year 2008, during its consideration before the full House. The 
Altmire/Udall amendment would expand the FMLA to provide leave for 
family members of military servicemen and women who are called to duty. 
Under the proposal, each individual of the family of a service member 
called to active duty--or who had reason to anticipate an impending 
call to active duty--would be entitled to take FMLA leave for any 
reason related to the call-up of a service member.
    However well-intentioned, the Altmire/Udall amendment is concerning 
to Coalition members. First, the amendment was constructed with such 
broad language that family members of soldiers could use the FMLA 
benefit for virtually any activity, including potentially those 
unrelated to a loved one's military assignment. Second, the amendment 
would allow leave on an unscheduled and intermittent basis, despite the 
uncertainty that dispensing intermittent leave poses to employers. 
Consequently, the Altmire/Udall amendment would add to current FMLA 
administration challenges.
    Members of Congress deserved the opportunity to explore the 
potential effect of these aspects of the Altmire/Udall amendment on the 
FMLA and how the amendment would interact with other federal and state 
leave statutes. However, prior to its consideration, the amendment was 
not reviewed by the committee of jurisdiction, the Committee on 
Education and Labor. The Coalition has consistently sought 
clarifications to the FMLA's confusing and conflicting implementing 
regulations to ensure the integrity of the Act. Due to the complexity 
of FMLA administration, until a comprehensive review is completed, the 
Coalition cannot support an effort like the Altmire/Udall amendment to 
expand the FMLA.
            <bullet> Support for Injured Servicemembers Act (Woolsey)
    Subcommittee Chairwoman Lynn Woolsey and Full Committee Chairman 
George Miller introduced the Support for Injured Servicemembers Act 
(H.R. 3481) on September 6, 2007. Similar legislation (S. 1975) was 
introduced by Senators Christopher Dodd and Hillary Rodham Clinton in 
the U.S. Senate. The bill would amend the FMLA to provide a total of 26 
workweeks of leave during any 12-month period to any the spouse, son, 
daughter, parent, or next of kin of a member of the U.S. military. 
Thus, the intent of the bill is to provide new rights to employees who 
are family members of service members, not directly to service members.
    H.R. 3481 would allow leave to be taken in the event that an 
eligible family member is involved in caring for the service member. 
The legislation covers any relative of a military member who is 
receiving any kind of medical treatment or is otherwise in medical hold 
or on the temporary disability retired list related to a combat-related 
injury or serious illness. All FMLA job service and eligibility 
requirements would apply to employees eligible for leave under H.R. 
3481. The legislation also includes a section that provides the same 
leave benefit to civil service employees.
    It appears that the legislation would allow the leave benefit to be 
taken on an intermittent basis. As under the FMLA, employees would need 
to meet a 1,250-hours worked requirement as a condition of eligibility 
to take leave under H.R. 3481.
    The Coalition believes the bill is written very broadly. The 
legislation's sole requirement to earn FMLA leave is that an eligible 
employee provides ``care for the servicemember.'' This is a very vague 
standard for leave, particularly in light of the tremendous 
administrative problems and resulting litigation the FMLA currently 
causes for employers. Such a benefit, particularly if accessible on an 
intermittent frequency, would be tremendously difficult for employing 
organizations to administer on a day-to-day basis.
            <bullet> Military Family and Medical Leave Act (Issa)
    A similar approach to the Woolsey/Miller bill is the legislation 
introduced by Representatives Darrell Issa and Nick Rahall entitled the 
Military Family and Medical Leave Act (H.R. 3391) on August 3, 2007.
    Like the Woolsey/Miller bill, H.R. 3391 would also directly amend 
the FMLA and grant 26 leave weeks in a 12-month period to a spouse, 
son, daughter, or parent of a service member with a serious health 
condition. Thus, the Coalition is concerned about the expansive and 
vague leave benefit contained in the Issa proposal. One minor 
difference is that, unlike the Woolsey bill, H.R. 3391 would not cover 
service members on the temporary disability retired list. H.R. 3391 
also does not include a section specifically covering civil servants.
            <bullet> Obama amendment
    During Senate consideration of H.R. 976, the Children's Health 
Insurance Program Reauthorization Act of 2007, Senator Barack Obama 
offered Senate amendment 2588 that would allow for 52 weeks leave for a 
family member to care for service member with combat-related injury.
    For purposes of establishing who is eligible for leave under the 
amendment, the legislation defines a ``family member'' as a spouse, 
child (natural, step, adopted, and illegitimate), parent, person in 
loco parentis, or sibling of a recovering service member. The term ``in 
loco parentis'' means a person who has stood in loco parentis for a 
period of at least one year before the member entered military service, 
and only one father and one mother figure, respectively, may be 
recognized under the bill relative to any one service member. It is 
unclear whether ``spouse'' might include domestic partners. The term 
``children'' would include adult children, regardless of whether they 
are incapable of self-care.
    Unlike the FMLA or the Woolsey or Issa bills, the Obama amendment 
includes no length of service or hours worked requirement. Also unlike 
the FMLA, the Obama amendment does not require leave to be taken during 
a one year period. Thus, it is unclear if an eligible employee would 
have to take all 52 weeks of leave in a single period under the Obama 
amendment, or if leave can be taken intermittently or on a reduced 
schedule basis.
    The Coalition believes these aspects of the Obama amendment deserve 
to be thoroughly scrutinized. However, just as the House considered the 
Altmire/Udall amendment without the benefit of a legislative hearing on 
the legislation, the Senate voted on the Obama amendment without any 
committee review.
V. Conclusion
    Madam Chair, and distinguished members of the Subcommittee, thank 
you for considering the views of the National Coalition to Protect 
Family Leave. The Coalition and its membership strongly supports 
members of the U.S. Armed Forces and their families, and we are hopeful 
that you will incorporate the Coalition's views as you consider 
legislation to address the existing Federal leave benefit. We look 
forward to a continuing dialogue with you on these important issues.
                                 ______
                                 
    Chairwoman Woolsey. Well, I want to thank you all for being 
here, and I think that we need to honor somebody who is in our 
audience. Sergeant Wade, would you mind standing up and let us 
appreciate you?
    And I especially want to thank you, Mrs. Wade, for taking 
this time and your testimony at this hearing. You have made it 
personal to all of us, the two of you, for being here. You have 
reminded us of your sacrifices and the sacrifices of all 
servicemembers and their families. Thank you for that.
    We have to do more than talk about this; we have to act, 
and we need to act as quickly as possible, because your story 
is not that unique, it appears. I wish it were. And we have an 
administration whose record on assistance for returning 
servicemembers and their families has not been all that good. 
So we need to take more action, we need to take it quickly, it 
needs to be bipartisan. And I suppose if I quit picking on the 
administration, it would make it easier for you, but we are 
going to work on this together, and we thank you very much for 
being the incentive for us. Thank you. Thank you all.
    The meeting is adjourned.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
